OFFICE OF INSPECTOR GENERAL




  SEMIANNUAL REPORT TO CONGRESS
 OCTOBER 1, 2002 - MARCH 31, 2003
                                                 FOREWORD




I am pleased to submit the semiannual report on the activities of the Department of
Veterans Affairs (VA), Office of Inspector General (OIG) for the period ended March 31,
2003. This report is issued in accordance with the provisions of the Inspector General
Act of 1978, as amended. The OIG is dedicated to helping ensure that veterans and
their families receive the care, support, and recognition they have earned through
service to our country.

A total of 78 reports on VA programs and operations resulted in systemic improvements
and increased efficiencies in areas of medical care, benefits administration,
procurement, financial management, information technology, and facilities
management. Audits, investigations, and other reviews identified $91 million in
monetary benefits.

Our criminal investigators concluded 451 investigations involving a wide variety of
criminal activity directed at VA personnel, patients, programs, or operations. During the
semiannual period, special agents conducted investigations that led to 824 arrests,
indictments, convictions, and pretrial diversions. They also produced $30 million in
monetary benefits to VA (recoveries and savings). Two of our most significant
investigations involved a VA police officer who was murdered while on duty at the VA
medical center (VAMC) in Puerto Rico, and a Veterans Benefits Administration (VBA)
employee who embezzled over $11.2 million from VA. The murder investigation led to
the arrest of the alleged ringleader of a violent gang operating in a public housing
complex in Puerto Rico. The embezzlement investigation concluded when the key
player in the scheme received a 13-year prison term and was ordered to pay restitution
of $11.2 million. In addition, criminal and administrative investigators, along with Hotline
staff, accomplished 238 administrative sanctions.

Audit oversight of VA focused on determining how to improve service to veterans and
their families. Preaward and postaward contract reviews identified monetary benefits of
about $56 million resulting from actual or potential contractor overcharges to VA.
Contract review recoveries have resulted in significant returns to VA’s Revolving Supply
Fund. Also, our audit of VA’s information security controls and security management
found that significant information security vulnerabilities continue to place the
Department at risk of: (i) denial of service attacks on mission critical systems, (ii)
disruption of mission critical systems, (iii) unauthorized access to and improper
disclosure of data subject to Privacy Act protection and sensitive financial data, and (iv)
fraudulent payment of benefits. Our recurring annual audit of the Department’s
Consolidated Financial Statements resulted in an unqualified opinion and revealed
material weaknesses involving information technology security controls and the
integrated financial management system.

Healthcare inspectors focused on quality of care issues in VA. Inspectors visited a
number of facilities in response to congressional and other special requests for
assistance to review a variety of health care-related matters. For example, an
inspection of the Contract Community Nursing Home (CNH) program found that the
Veterans Health Administration (VHA) had taken years to implement standardized
inspection procedures for monitoring CNH activities and for approving homes for
participation in the program. In two other significant reports, we found that information
security and privacy were not uniformly addressed throughout VA and that procedures
for communicating abnormal test results need to be strengthened to ensure consistent
application across VA.

The OIG’s ongoing Combined Assessment Program (CAP) evaluated the quality,
efficiency, and effectiveness of VA facilities. Through this program, auditors,
investigators, and healthcare inspectors collaborated to assess key operations and
programs at VAMCs and VA regional offices (VAROs) on a cyclical basis. The 12 CAP
reviews and 3 CAP summary reviews completed during this reporting period highlighted
numerous opportunities for improvement in quality of care, management controls, and
fraud prevention. I am committed to extending this program to enable more frequent
oversight of VA activities.

I look forward to continued partnership with the Secretary and the Congress in pursuit of
world class service for our Nation’s veterans.




RICHARD J. GRIFFIN
Inspector General
                             VA SUPERVISOR

                        SENTENCED IN $11.2 MILLION

                              FRAUD CASE

     INSPECTOR
      GENERAL


Sarah Prater, a 30-year VA employee and a supervisor at the Atlanta VA
Regional Office (VARO), was the last of 12 co-conspirators sentenced
for an embezzlement scheme that netted them over $11.2 million.
What started as a phone call to the VA Office of Inspector General (OIG)
by an alert employee of the Naval Federal Credit Union (NFCU),
resulted in an OIG team’s discovery of the largest known
embezzlement by a VA employee.

The embezzlement came to light when the        reestablished, she generated large

NFCU employee received two large benefit       retroactive payments and, in some cases,

disbursements from VA that were directed to    recurring monthly payments to her co-

the same account. Both                                             conspirators. After the

payments were in the                                               payments were

                                    Athens Banner-Herald
same amount, and made          Wednesday, December 4, 2002         deposited in private bank

out to the same payee,                                             accounts, the co-
but with two different VA                                          conspirators shared their
claim numbers. The                                                 bounty with Ms. Prater by
NFCU employee realized                                             giving her what amounted
that someone needed to                                             to approximately one-
check further into this                                            third of what they had
matter.                                                            received.

MULTIDISCIPLINARY                                                       The OIG team
TEAM BEGINS THE                                                         established that a
SEARCH                                                                  scheme started in July
                                                                        1996, when Ms. Prater
An OIG team composed                                                    channeled funds to Kathy
of investigators, auditors,                                             Eselhorst (a career VA
and information technology specialists           employee who was retired) and Ernest
discovered that Ms. Prater devised a scheme      Thornton (a former VA employee). Between
whereby she used her position of trust and the   1996 and August 2001, the trio stole over $6
VA computer system to resurrect the claims       million. After Prater, Eselhorst, and Thornton
files of deceased veterans who had no known      were arrested, Prater’s attorney indicated that
dependents. Once the files were                  she wanted to enter a plea. As a result, the
OIG investigative team and the U.S.              three of the co-conspirators also pled guilty to
Attorney’s Office decided to continue looking    defrauding the Social Security Administration.
at all claims files handled by Ms. Prater.       The 12 defendants were sentenced to a total
                                                 of 39.5 years’ imprisonment, 38 years’
TWO SEPARATE SCHEMES                             probation, and judicially ordered to make
UNCOVERED                                        restitution totaling over $34 million.

What the OIG team then discovered was a          Prater was sentenced separately from her
second conspiracy that predated the one          co-conspirators on December 4, 2002. She
already uncovered. Starting in 1993, Ms.         is presently serving a 13-year term in a
Prater embezzled approximately $5 million        Federal prison, to be followed by 3 years’
while working with a close friend, Billie Nell   supervised release. Her portion of the court
Ogletree, six of Ms. Ogletree’s family           ordered restituion was $11,224,741.20. The
members, and two other friends (a married        restitution in this case was ordered jointly and
couple). Prater and Ogletree devised a           severally with her co-conspirators.
scheme whereby large lump sum payments
and recurring monthly benefit payments were
made to Ogletree’s sons, daughters-in-law,
grandson, and friends Henry and Barbara
Roberts. Like the scheme with her
coworkers, Prater received a share of the
benefits when the large checks were cashed.

When the earlier scheme was identified, the
team determined that the most effective
investigative technique would be the
simultaneous interviewing of all the subjects
involved–especially based on intelligence
about the subjects’ criminal histories that
included weapons and drugs. Early morning                 Two-person submarine recovered
interviews with the suspects resulted in                       from the conspirators
multiple confessions.
                                                 PLANES, SUBS, AND AUTOMOBILES
An interesting sidelight to this story is that
Prater was simply the common denominator         During the investigation, over 100 bank
in the two separate conspiracies. One group      accounts were analyzed to determine the
of conspirators did not know about the other.    disposition of the stolen money. The
                                                 investigation generated 73 seizure warrants
GUILTY AS CHARGED                                and 30 forfeiture recoveries.

The 12 co-conspirators pled guilty to various    Property with an appraised value of almost
charges including theft of Government funds,     $2.8 million was seized or forfeited. This
conspiracy, and conspiracy to commit money       included houses, automobiles, and such
laundering. Prater’s guilty plea came after      oddities as a mini-submarine and an airplane.
being indicted on 1,000 counts from the two      In addition, numerous bank accounts,
conspiracies. In addition to defrauding VA,      insurance policies, cash, jewelry, valuable
                                                   conclude that payments were valid for 99.8
                                                   percent of the cases reviewed, with the
                                                   balance of cases being associated with the
                                                   Atlanta fraud situation.

                                                   Although the benefits delivery system and
                                                   claims processing in general were free of any
                                                   similar one-time pay fraud situations, the
                                                   reviewers did find unacceptably high rates of
                                                   noncompliance with internal control
                                                   requirements related to one-time payment
                                                   claims processing. As a result of our review,
                                                   VBA began requiring that regional office
  A camper van was one of the many luxury items    management review all large one-time
     purchased by the conspirators during their
          spending spree with VA funds.            payments to ensure that they were
                                                   appropriate and that required reviews were
collections (including a $40,000 Barbie doll       performed. In addition, it was recommended
collection), antiques, cars, boats, and motor      that the Under Secretary for Benefits ensure
homes were recovered from the individuals          that security deficiencies discovered in the
involved.                                          claims processing system be corrected, and
                                                   that regional office managers certify annually
THE INVESTIGATION EXPANDED                         that their claims processing security is in
                                                   compliance with required controls.
In order to ensure the integrity of the benefits
delivery system, the Secretary of Veterans
Affairs, Anthony J. Principi, requested the OIG
conduct a departmentwide review. This
project consisted of examining all one-time
payments of $25,000 or more made by the
Veterans Benefits Administration (VBA), as
well as a review of active awards that were
considered vulnerable to fraud based on
previously developed characteristics
associated with prior employee frauds. In
addition, compliance with VBA’s claims
processing requirements by regional offices,
information technology security, and the                          Recovered SUV
physical security of VA claims folders were
also reviewed.

Although not like the scheme uncovered at the
Atlanta VARO, one additional case of
employee fraud was found following a review
of 58,129 one-time payments and 2,129 fraud
profile cases. The review team was able to
[This page intentionally left blank]
                                                    TABLE OF CONTENTS


                                                                                                                                                      Page

HIGHLIGHTS OF OIG OPERATIONS ..................................................................................................                          i

VA AND OIG MISSION, ORGANIZATION, AND RESOURCES ............................................................                                             1

COMBINED ASSESSMENT PROGRAM ..............................................................................................                               7

OFFICE OF INVESTIGATIONS

     Mission Statement ......................................................................................................................           13

     Resources ..................................................................................................................................       13

     Criminal Investigations Division ..................................................................................................                13

              Veterans Health Administration ......................................................................................                     14

              Veterans Benefits Administration ...................................................................................                      16

              Fugitive Felon Program .................................................................................................                  21

              OIG Forensic Document Laboratory ..............................................................................                           21

     Administrative Investigations Division ........................................................................................                    22

              Veterans Health Administration ......................................................................................                     23

OFFICE OF AUDIT

     Mission Statement ......................................................................................................................           25

     Resources ..................................................................................................................................       25

     Overall Performance ..................................................................................................................             25

              Veterans Benefits Administration ...................................................................................                      26

              Office of Management ...................................................................................................                  26

              Office of Information and Technology ............................................................................                         28

OFFICE OF HEALTHCARE INSPECTIONS

     Mission Statement ......................................................................................................................           29

     Resources ..................................................................................................................................       29

     Overall Performance ..................................................................................................................             29

             Veterans Health Administration .......................................................................................                     30

OFFICE OF MANAGEMENT AND ADMINISTRATION

     Mission Statement ......................................................................................................................           39

     Resources ..................................................................................................................................       39

     Hotline Division ..........................................................................................................................        40

              Veterans Health Administration ......................................................................................                     41

              Veterans Benefits Administration ...................................................................................                      45

              National Cemetery Administration .................................................................................                        46

     Operational Support Division ......................................................................................................                46

     Information Technology and Data Analysis Division ....................................................................                             47

     Financial and Administrative Support Division ............................................................................                         50

     Human Resources Management Division ...................................................................................                            51

OTHER SIGNIFICANT OIG ACTIVITIES

     President’s Council on Integrity and Efficiency ............................................................................                       53

     OIG Management Presentations ................................................................................................                      53

     Awards .......................................................................................................................................     53


APPENDIX A - REVIEWS BY OIG STAFF ............................................................................................                          57

APPENDIX B - STATUS OF OIG REPORTS UNIMPLEMENTED FOR OVER 1 YEAR ...................                                                                    65

             Veterans Health Administration ......................................................................................                      66

             Joint (Veterans Health Administration and Office of Security and Law Enforcement) ......                                                   68

             Veterans Benefits Administration ...................................................................................                       70

APPENDIX C - INSPECTOR GENERAL ACT REPORTING REQUIREMENTS ................................                                                              73

APPENDIX D - OIG OPERATIONS PHONE LIST ..............................................................................                                   77

APPENDIX E - GLOSSARY ................................................................................................................                  79

[This page intentionally left blank]
           HIGHLIGHTS OF OIG OPERATIONS


This semiannual report highlights the activities and accomplishments of the Department of
Veterans Affairs (VA) Office of Inspector General (OIG) for the 6-month period ended March 31,
2003. The following statistical data highlights OIG activities and accomplishments during the
reporting period.

       DOLLAR IMPACT                                                                                                Dollars in Millions

                Funds Put to Better Use ........................................................................              $51.5
                Dollar Recoveries .................................................................................           $19.5
                Fines, Penalties, Restitutions, and Civil Judgments .............................                             $20.0

       RETURN ON INVESTMENT

                Dollar Impact ($91.0) / Cost of OIG Operations ($29.8) ....................                                     3 : 1


       OTHER IMPACT

                Arrests ..................................................................................................    362

                Indictments............................................................................................       160

                Convictions ...........................................................................................       288

                Pretrial Diversions ................................................................................           14

                Administrative Sanctions ......................................................................               238


       ACTIVITIES

          Reports Issued
             Combined Assessment Program ............................................................                           15

             Joint Review .........................................................................................              1

             Audits ...................................................................................................          8

             Contract Reviews ..................................................................................                30

             Healthcare Inspections ..........................................................................                  15

             Administrative Investigations ...............................................................                       9


          Investigative Cases
              Opened ..................................................................................................       480

              Closed ...................................................................................................      451


          Healthcare Inspections Activities
             Clinical Consultations ...........................................................................                 15


          Hotline Activities
              Contacts ................................................................................................      7,534

              Cases Opened .......................................................................................             605

              Cases Closed .........................................................................................           657


                                                                           i

OFFICE OF INVESTIGATIONS

Overall Focus

The Office of Investigations focuses its resources on investigations that have the highest impact on the
programs and operations of the Department. While continuing to target traditional “white collar” criminal
activity associated with the operation of VA, personnel of the Criminal Investigations Division more frequently
find themselves involved in the investigation of violent criminal activity such as murder, armed robbery, and
terroristic or other threats – all of which are occurring on VA property and/or directed at VA personnel,
patients, programs, or operations. The Administrative Investigations Division continues to concentrate its
resources on investigating allegations against high-ranking VA officials relating to misconduct and other
matters of interest to the Congress and the Department.

During this semiannual period, the Office of Investigations concluded 451 investigations resulting in 462
judicial actions (indictments, convictions, and pretrial diversions) and $30 million recovered or saved.
Investigative activities resulted in the arrest of 362 individuals for committing crimes directed at VA programs
and operations or crimes that were committed on VA property. In addition, 167 administrative sanctions were
taken as a result of criminal investigations. The Administrative Investigations Division closed 15 cases,
issuing 9 reports and 2 advisory memoranda. These investigations resulted in management agreeing to take 26
administrative sanctions, including personnel actions against 12 individuals and corrective action in 14
situations that will improve VA operations.

Veterans Health Administration

VA OIG special agents played a significant role in the investigation and arrest of 10 gang members for a
variety of gang-related offenses in San Juan, Puerto Rico. Investigation revealed that the drug activities of the
gang members were associated with the murder of a VA police officer during a robbery attempt at VA medical
center (VAMC) San Juan. To date, one subject, alleged to be the “ringleader” of this vicious organized
criminal group, has been indicted on Federal charges for the murder of the VA police officer. If convicted, the
subject could face the death penalty.

In another suspicious death investigation by VA OIG agents, a nurse pled guilty to involuntary manslaughter
and was sentenced to serve a 24-month prison term after investigators determined that the nurse administered
an unauthorized dose of Diprivan, causing the death of the veteran 12 days later.

VA OIG agents also investigated and arrested a veteran with a long history of mental illness for making threats
to VA personnel to include stating he was carrying out a “jihad” (holy war) against the VA facility at White
River Junction, Vermont. The subject (who previously served prison time for possessing a handgun and bomb
as he took a psychiatrist hostage) claimed that his van was full of explosives when law enforcement officials
arrested him. With the assistance of the Federal Bureau of Investigation (FBI) and state police, the van was
rendered safe after a bomb-detecting robot found no explosives. However, a subsequent search of the vehicle
discovered various items that are currently undergoing forensic examination to determine if the items could
potentially have been used to construct a bomb.




                                                        ii
Veterans Benefits Administration

VA OIG agents investigated the owners and operators of a real estate business for equity skimming and mail
fraud. OIG investigators determined that the subjects fraudulently represented themselves to financially
distressed homeowners, took over the outstanding mortgages or tax payments, located outside investors to
purchase the properties, and contacted the banks holding the mortgages to inform them of what they had done.
The subjects were able to obtain the quitclaim deeds to the properties based on their promises. In turn, they
would collect rent from the more than 168 properties under their control. Instead of paying on the mortgages,
the subjects would use the rental proceeds for their personal gain. Two owners pled guilty and sentencing is
pending.

Another Side of the VA OIG

An article appeared in a New York VA Regional Office (VARO) newsletter revealing the humanitarian side of
the OIG by highlighting the efforts of OIG Special Agent (SA) Gerald Poto and regional office personnel in
identifying a homeless man found dying in the streets of New York. After being admitted to a hospital, the
admitting physician contacted the New York City missing persons unit and FBI for assistance in identifying the
man. The matter was eventually turned over to the VA OIG and SA Poto began conducting interviews,
facilitating fingerprinting, and eventually identifying the individual as a veteran who had previously been
declared dead by a Texas court. SA Poto worked with the VARO to amend official VA records to reflect that
the veteran was still alive. This allowed the veteran to be admitted to the warm, caring environment of the
New York VAMC, where unfortunately he died, but with the dignity deserving of our Nation’s veterans.

OFFICE OF AUDIT

Audit Saved or Identified Improved Uses for $60 Million

Audits and evaluations were focused on operations and performance results to improve service to veterans.
During this reporting period, 53 audits, evaluations, and reviews, including Combined Assessment Program
(CAP) reviews, were conducted that identified opportunities to save or make better use of approximately $60
million.

Office of Management

The audit of the Department’s Consolidated Financial Statements for Fiscal Years (FYs) 2002 and 2001
resulted in an unqualified opinion. The report on internal control discusses two material weaknesses involving:
(i) inadequate information technology security controls, and (ii) lack of an integrated financial management
system. The report also discusses three reportable conditions that, while not considered material weaknesses,
are significant system or control weaknesses that could adversely affect the recording and reporting of the
Department’s financial information. The three conditions are: (i) application program and operating system
change controls, (ii) loan guaranty business process, and (iii) operational oversight.

Contract Review and Evaluation

During the period, 30 contract reviews were completed - 18 preaward and 12 postaward reviews. These
reviews identified monetary benefits of about $56 million resulting from contractor actual or potential
overcharges to VA.


                                                      iii
Office of Information Technology

An audit of VA information security controls and security management reported that, while progress has been
made, much work remains to implement key information technology (IT) security initiatives, establish a
comprehensive integrated VA security program, and fully comply with the Government Information Security
Reform Act (superseded by the Federal Information Security Management Act). The audit found that
significant information security vulnerabilities continue to place the Department at risk of: (i) denial of service
attacks on mission critical systems, (ii) disruption of mission critical systems, (iii) unauthorized access to and
improper disclosure of data subject to Privacy Act protection and sensitive financial data, and (iv)
disbursements from VA benefit payment systems.

OFFICE OF HEALTHCARE INSPECTIONS

The Office of Healthcare Inspections (OHI) participated with the Offices of Audit and Investigations on 11
CAP reviews and reported on specific clinical issues warranting the attention of VA managers. OHI reviewed
health care issues and made 46 recommendations and 49 suggestions to improve operations, activities, and the
care and services provided to patients.

Inspection of the Contract Community Nursing Home (CNH) program found that the U.S. General Accounting
Office and OIG advised VHA to address oversight and control vulnerabilities as far back as 1987. VHA
policy for the program had been under review since 1995, and this slow pace of revising policy led to variances
over time in the way local managers and clinicians administered and monitored CNH activities. Oversight
controls and contract processes needed improvement to reduce the risk that veterans in CNHs will be subject to
adverse incidents.

A summary evaluation of VHA’s medical record security and privacy practices found that patient information
security and privacy were not uniformly addressed across the VA. Another summary evaluation of VHA
procedures for communicating abnormal test results found that guidelines needed to be strengthened to ensure
consistent application across the VA.

In responding to congressional and other special requests and reviewing patient allegations pertaining to
quality of care issues received by the OIG Hotline, OHI completed 20 Hotline cases, reviewed 61 issues, and
made 41 recommendations. These recommendations resulted in managers issuing new and revised procedures,
improving services, improving quality of patient care, and making environmental and safety improvements.
OHI assisted the Office of Investigations on 15 criminal and fraud cases that required reviews of medical
evidence, and monitored the work of VHA’s Office of the Medical Inspector.

OFFICE OF MANAGEMENT AND ADMINISTRATION

Hotline

The Hotline provides an opportunity for employees, veterans, and other concerned citizens to report criminal
activity, waste, abuse, and mismanagement. During the reporting period, the Hotline received 7,534 contacts
and we opened 605 cases, of which 21 were from congressional sources. We closed 657 cases, of which 195
contained substantiated allegations (30 percent). The monetary impact resulting from these cases totaled
almost $1.2 million. The cases also led to 45 administrative sanctions against employees and 68 corrective




                                                        iv
actions taken by management to improve VA operations and activities. Examples of some of the issues
addressed by Hotline include improper disclosure of a veteran’s sensitive information to a third party by a
senior official, an improper personal and financial relationship between an employee and a patient, receipt of
medical care totaling $450,000 by two ineligible veterans, patient safety violations, misuse of Government
time and equipment in support of outside employment, and misconduct by VA employees.

Follow Up on OIG Reports

The Operational Support Division continually tracks the VA staff actions to implement OIG audits,
inspections, and reviews. As of March 31, 2003, there were 65 open OIG reports containing 221
unimplemented recommendations with over $1 billion of actual or potential monetary benefits. During this
reporting period, we closed 72 reports and 437 recommendations with a monetary benefit of $18 million after
obtaining information that VA officials had fully implemented corrective actions.

Status of OIG Reports Unimplemented for Over 1 Year

The Federal Acquisition Streamlining Act of 1994 provides guidance on prompt management decisions and
implementation of OIG recommendations. It states a Federal agency shall complete final action on each
recommendation in an OIG report within 12 months after the report is finalized. If the agency fails to complete
final action within this period, the OIG will identify the matter in their semiannual report to Congress. There
are 10 OIG reports issued over 1 year ago (March 31, 2002, and earlier) with unimplemented
recommendations. Six of these are VHA reports, one is a joint VHA and Office of Security and Law
Enforcement report, and three are Veterans Benefits Administration (VBA) reports. We are especially
concerned about the three reports on VHA operations, issued in 1996, 1997, and 1999, respectively, with
recommendations that still remain open. Details about these reports can be found in Appendix B.




                                                        v
vi

VA AND OIG MISSION, ORGANIZATION, AND
RESOURCES

The Department of
Veterans Affairs (VA)
Background
In one form or another, American governments
have provided veterans benefits since before the
Revolutionary War. VA’s historic predecessor
agencies demonstrate our Nation’s long
commitment to veterans.

The Veterans Administration was founded in 1930,
when Public Law 71-536 consolidated the
                                                                          VA Central Office

Veterans’ Bureau, the Bureau of Pensions, and the             810 Vermont Avenue, NW, Washington, DC

National Home for Disabled Volunteer Soldiers.

The Department of Veterans Affairs was                     Organization
established on March 15, 1989, by Public Law
100-527, which elevated the Veterans                       VA has three administrations that serve veterans:

Administration, an independent agency, to Cabinet-         z Veterans Health Administration (VHA)

level status.                                              provides health care,

                                                           z Veterans Benefits Administration (VBA)

                                                           provides benefits, and

Mission                                                    z National Cemetery Administration (NCA)

                                                           provides interment and memorial services.

VA’s motto comes from Abraham Lincoln’s second
inaugural address, given March 4, 1865, “to care           To support these services and benefits, there are

for him who shall have borne the battle and for his        six Assistant Secretaries:

widow and his orphan.” These words are inscribed           z Management (Budget; Finance; Acquisition

on large plaques on the front of the VA Central            and Materiel Management (A&MM));

Office building on Vermont Avenue in Washington,           z Information and Technology (I&T);

DC.                                                        z Policy, Planning, and Preparedness (Policy;

                                                           Planning; and Security and Law Enforcement

The Department’s mission is to serve America’s             (S&LE));

veterans and their families with dignity and               z Human Resources and Administration

compassion and to be their principal advocate in           (Diversity Management and Equal Employment

ensuring that they receive the care, support, and          Opportunity; Human Resources Management

recognition earned in service to this Nation.              (HRM); Administration; and Resolution

                                                           Management);




                                                      1

VA and OIG Mission, Organization, and Resources

z   Public and Intergovernmental Affairs; and               insurance programs have 4.2 million policies in
z   Congressional and Legislative Affairs.                  force, with a face value of over $706 billion. VA
                                                            expects 270,000 home loans to be guaranteed in
In addition to VA’s Office of Inspector General,            FY 2003, with a value of almost $35 billion.
other staff offices providing support to the
Secretary include the Board of Contract Appeals,            The National Cemetery Administration operates
the Board of Veterans’Appeals, the Office of                and maintains 120 cemeteries and employs over
General Counsel, the Office of Small and                    1,500 staff in FY 2003. Operations of NCA and
Disadvantaged Business Utilization, the Center for          all of VA’s burial benefits account for
Minority Veterans, the Center for Women Veterans,           approximately $410 million of VA’s budget.
the Office of Employment Discrimination                     Interments in VA cemeteries continue to increase
Complaint Adjudication, and the Office of                   each year, with 91,000 estimated for FY 2003.
Regulation Policy and Management.                           Approximately 367,000 headstones and markers
                                                            are expected to be provided for veterans and their
Resources                                                   eligible dependents in VA and other Federal
                                                            cemeteries, state veterans’ cemeteries, and private
While most Americans recognize the VA as a                  cemeteries.
Government agency, few realize that it is the
second largest Federal employer. For FY 2003, VA            VA Office of Inspector
has approximately 211,000 employees and a $60.3
billion budget. There are an estimated 25.6 million         General (OIG)
living veterans. To serve our Nation’s veterans,
VA maintains facilities in every state, the District        Background
of Columbia, the Commonwealth of Puerto Rico,
Guam, and the Philippines.                                  VA’s OIG was administratively established on
                                                            January 1, 1978, to consolidate audits,
Approximately 193,000 of VA’s employees work in             investigations, and related operations into a
VHA. Health care is funded at over $26.3 billion,           cohesive, independent organization. In October
approximately 44 percent of VA’s budget in FY               1978, the Inspector General Act (Public Law 95-
2003. VHA provides care to an average of 59,000             452) was enacted, establishing a statutory
inpatients daily. During FY 2003, VA expects to             Inspector General (IG) in VA.
provide almost 51 million episodes of care for
outpatients. There are 162 hospitals, 137 nursing
                                                            Role and Authority
home units, 206 veterans centers, 43 domiciliaries,
and 856 outpatient clinics (including hospital
                                                            The Inspector General Act of 1978 states that the
clinics).
                                                            IG is responsible for: (i) conducting and
                                                            supervising audits and investigations; (ii)
Veterans benefits are funded at $33.4 billion, about
                                                            recommending policies designed to promote
55 percent of VA’s budget in FY 2003.
                                                            economy and efficiency in the administration of,
Approximately 13,000 VBA employees at 57 VA
                                                            and to prevent and detect criminal activity, waste,
Regional Offices (VAROs) provide benefits to
                                                            abuse, and mismanagement in VA programs and
veterans and their families. Almost 2.8 million
                                                            operations; and (iii) keeping the Secretary and the
veterans and their beneficiaries receive
                                                            Congress fully informed about problems and
compensation benefits valued at $25.2 billion.
                                                            deficiencies in VA programs and operations, and
Also, $3.3 billion in pension benefits will be
                                                            the need for corrective action.
provided to veterans and survivors. VA life




                                                       2

                                                      VA and OIG Mission, Organization, and Resources

The Inspector General Act Amendments of 1988                   OIG resource allocation, by organizational
provided the IG with a separate appropriation                  element, during this reporting period, is shown as
account and revised and expanded procedures for                follows.
reporting semiannual workload to Congress. The
IG has authority to inquire into all VA programs
and activities as well as the related activities of
persons or parties performing under grants,
contracts, or other agreements. The inquiries may                           VHA                      Information
be in the form of audits, investigations,                                   42%                      Technology
inspections, or other special reviews.                                                                    6%


Organization
                                                                  Management
Allocated full-time equivalent (FTE) employees
                                                                      7%
from appropriations for the FY 2003 staffing plan                                                     VBA
are shown below.                                                                                      33%
                                                                              A&MM
                                                                               12%

                                 ALLOC ATED
           OFFIC E
                                    FTE
                                                               OIG resource allocation applied to mandated,
  Inspector General                        4
                                                               reactive, and proactive work is shown below.
  C ounselor                               4

  Investi gati ons                      136
                                                                            Mandated
  Audi t                                176                                   15%
  Management and
                                          57
  Admi ni strati on                                                                                      Reactive
  Healthcare Inspecti ons                 46                                                              42%

           TOTAL                        423                             Proactive
                                                                          43%

In addition, 25 FTE are reimbursed for a
Department contract review function.

FY 2003 funding for OIG operations is
                                                               Mandated work is required by statute or
$60.5 million, with $57.6 million from
                                                               regulation. Examples include our audits of VA’s
appropriations and $2.9 million through a
                                                               consolidated financial statements, oversight of
reimbursable agreement. Approximately
                                                               VHA’s quality assurance programs and Office of
69 percent of the total funding is for salaries and
                                                               the Medical Inspector, follow up activities on OIG
benefits, 5 percent for official travel, and the
                                                               reports, and releases of Freedom of Information
remaining 26 percent for all other operating
                                                               Act information.
expenses such as contractual services, rent,
supplies, and equipment.




                                                          3

VA and OIG Mission, Organization, and Resources

Reactive work is generated in response to requests         In performing its mandated oversight function,
for assistance received from external sources              the OIG conducts investigations, audits, and
concerning allegations of criminal activity, waste,        healthcare inspections to promote economy,
abuse, and mismanagement. Most of the Office of            efficiency, and effectiveness in VA activities, and
Investigations’ work is reactive.                          to detect and deter fraud, waste, abuse, and
                                                           mismanagement. Inherent in every OIG effort
Proactive work is self-initiated, focusing on areas        are the principles of quality management and a
where the OIG staff determines there are                   desire to improve the way VA operates by helping
significant issues.                                        it become more customer driven and results
                                                           oriented.

                                                           The OIG will keep the Secretary and the
                                                           Congress fully and currently informed about
                                                           issues affecting VA programs and the
                                                           opportunities for improvement. In doing so, the
                                                           staff of the OIG will strive to be leaders and
                                                           innovators, and to perform their duties fairly,
                                                           honestly, and with the highest professional
                                                           integrity.




       TechWorld, home to the VA Office of
               Inspector General


OIG Mission Statement
The OIG is dedicated to helping VA ensure that
veterans and their families receive the care,
support, and recognition they have earned
through service to their country. The OIG
strives to help VA achieve its vision of becoming
the best managed service delivery organization in
Government. The OIG continues to be
responsive to the needs of its customers by
working with the VA management team to
identify and address issues that are important to
them and the veterans served.




                                                      4

                                                            Department of Veterans Affairs
                                                             Office of Inspector General


                                                                       Inspector General
                               Executive Assistant                   ---------------------------                      Counselor to the
                                                                                                                     Inspector General
                                                                              Deputy


      Assistant Inspector General            Assistant Inspector General                 Assistant Inspector General                Assistant Inspector General
     Management and Administration                  Investigations                                   Audit                            Healthcare Inspections
            --------------------                   ---------------------                       --------------------                       --------------------
                 Deputy                                  Deputy                                     Deputy                                     Deputy


                                                                                        Contract                                Medical Advisor        Program
       Hotline         Operational       Administrative             Criminal            Review                      Audit             to             Administration
                        Support          Investigations          Investigations           and                     Planning        Inspector           and Special
                                                                                       Evaluation                                  General             Projects

                        Financial
       Human               and            Analysis and                                 Operational                Financial               Regional Offices
      Resources       Administrative       Oversight                  Benefits          Support                     Audit                     Atlanta
     Management         Support




5

                                                                       Fraud                                                                  Bedford
                                                                                                                                              Chicago
     Information                         Field Offices                                      Operations Divisions                               Dallas
     Technology                              Chicago                Computer                                                                Los Angeles
                                                                                           Atlanta     Bedford
      and Data                                Dallas                Crimes and                                                              Washington
                                                                                           Chicago     Dallas
       Analysis                           Los Angeles               Forensics              Kansas City Los Angeles
                                           New York                                        Seattle     Washington
                                         St. Petersburg
     Field Office
        Austin                         Resident Agencies                                             Sub-Office
                                Atlanta                             Healthcare                         Austin
                                                 Bedford
                                Cleveland        Columbia             Fraud
                                Denver           Houston
                                Kansas City      Nashville
                                New Orleans      Newark              Fugitive
                                Phoenix          Pittsburgh
                                                                      Felon
                                San Diego        San Francisco
                                Seattle          Washington          Program
                                West Palm Beach

                                                                     Forensic
                                                                    Document
                                                                    Laboratory
VA and OIG Mission, Organization, and Resources




                                         6

COMBINED ASSESSMENT PROGRAM

Reports Issued                                                Auditors assess key areas of management concern,
                                                              which are derived from a concentrated and
During the period October 1, 2002 through March               continuing analysis of VHA, Veterans Integrated
31, 2003, we issued 12 CAP reports. Of the 12                 Service Network (VISN), and VAMC databases
CAP reports, 11 were for VA health care systems,              and management information. Areas generally
VAMCs, and outpatient clinics, and 1 for a VARO.              covered include procurement practices, financial
We also issued three CAP summary reports during               management, accountability for controlled
this period.                                                  substances, and information security.

                                                              Special agents conduct fraud and integrity
Combined Assessment Program
                                                              awareness briefings. The purpose of these

Overview - Medical                                            briefings is to provide VAMC employees with

                                                              insight into the types of fraudulent and other

CAP reviews are part of the OIG’s efforts to                  criminal activities that can occur in VA programs

ensure that quality health care services are                  and operations. The briefings include an overview

provided to our Nation’s veterans. CAP reviews                and case-specific examples of fraud and other

provide cyclical oversight of VAMC operations,                criminal activities. Special agents may also

focusing on the quality, efficiency, and                      investigate certain matters referred to the OIG by

effectiveness of services provided to veterans.               VA employees, members of Congress, veterans,

                                                              and others.

CAP reviews combine the skills and abilities of
representatives from the OIG Offices of Healthcare            During this period, we issued 11 health care

Inspections, Audit, and Investigations to provide             facility CAP reports. See Appendix A for the full

collaborative assessments of VA health care                   title and date of the CAP reports issued this period.

systems and VA medical centers on a recurring                 These 11 reports relate to the following VA medical

basis.                                                        facilities:


Healthcare inspectors conduct proactive reviews to            z   VAMC Birmingham, Alabama

evaluate care provided in VA health care facilities           z   Northern Arizona VA Healthcare System

and assess the procedures for ensuring the                    Prescott, Arizona

appropriateness of patient care and the safety of             z VAMC West Palm Beach, Florida

patients and staff. The facilities are evaluated to           z VAMC Atlanta, Georgia

determine the extent to which they are contributing           z VAMC Boise, Idaho

to VHA’s ability to accomplish its mission of                 z VAMC Lexington, Kentucky

providing high quality health care, improved                  z VAMC Alexandria, Louisiana

patient access to care, and high patient satisfaction.        z VAMC Bronx, New York

Their effort includes the use of standardized survey          z Chalmers P. Wylie VA Outpatient Clinic,

instruments.                                                  Columbus, Ohio

                                                              z VAMC San Juan, Puerto Rico

Auditors conduct reviews to ensure management                 z VA Salt Lake City Healthcare System, Utah

controls are in place and operating effectively.




                                                         7

Combined Assessment Program

                                                             z Service contract controls or contract
                                                             administration efforts were deficient at 7 of 10
                                                             facilities where we tested these issues. Controls
                                                             needed to be strengthened to ensure that acquisition
                                                             and materiel management staff determines price
                                                             reasonableness in noncompetitive contracts, and
                                                             that contract provisions include procedures to help
                                                             ensure contract compliance. Contract
                                                             administration also needed improvement. For
                                                             example, at one facility visited, none of the nine
                                                             locally awarded clinical service contracts were
                                                             forwarded to VACO to facilitate quality assurance
                  VA Medical Center                          and oversight.
                      Boise, ID
                                                             z    Medical supply inventory management was
Summary of Findings                                          deficient at all 7 facilities, and nonmedical
                                                             inventory management was deficient at 4 of 5
Deficiencies identified during CAP reviews in the            facilities where we tested these issues. We found
management of veterans health care programs were             that inventory levels exceeded current requirements
discussed in two recently issued OIG summary                 resulting in funds being tied up in excess
reports - Summary Report of CAP Reviews at                   inventories.
VHA Medical Facilities, April 2001 through
September 2002; and Summary Report of CAP                    Information Technology
Reviews at VHA Medical Facilities, October 2002
through December 2002. During this reporting                 A wide range of automated information system
period, OIG staff identified similar problems at the         vulnerabilities were identified that could lead to
11 facilities.                                               misuse of sensitive information and data. VA had
                                                             established comprehensive information security
Procurement                                                  policies, procedures, and guidelines; however,
                                                             CAP reviews found that facility policy
The OIG identified the need to improve                       development, implementation, and compliance
procurement practices in VA as one of the                    were inconsistent. In addition, there was a need
Department’s most serious management                         to improve access controls, contingency planning,
challenges. We continue to identify control                  incident reporting, and security training. We
weaknesses in this area. Controls need to be                 found inadequate management oversight
strengthened to: (i) effectively administer the              contributing to inefficient practices, and to
Government purchase card program, (ii) improve               inadequate information security and physical
service contract controls, (iii) avoid conflicts of          security of assets. CAP findings complement the
interest, (iv) improve contract administration, and          results of our FY 2002 Government Information
(v) strengthen inventory management.                         Security Reform Act audit that identified
                                                             information security vulnerabilities that place the
z Government purchase card controls were                     Department at risk of: (i) denial of service
deficient at 7 of 11 facilities where we tested these        attacks on mission critical systems, (ii) disruption
issues. Policy and procedures governing the use of           of mission critical systems, (iii) unauthorized
purchase cards, setting purchasing limits, and
accounting for purchases were not followed.




                                                        8

                                                                        Combined Assessment Program

access to and improper disclosure of data subject           Part-Time Physician Time and Attendance
to Privacy Act protection and sensitive financial
data, and (iv) fraudulent payment of benefits.              z VAMC managers did not have effective
                                                            controls in place to ensure that part-time
z   Information technology security deficiencies            physicians were on duty when required by
were found at all 11 VHA sites visited. We found            employment agreements at 6 of 10 facilities where
that: (i) security plans were not prepared or were          we tested these controls. Physicians did not
not kept current, (ii) contingency plans lacked key         complete appropriate time and attendance records,
elements, (iii) access to VHA’s Veterans Health             and timecards were not posted based on the
Information Systems and Technology Architecture             timekeepers’ actual knowledge of physicians’
was not effectively monitored, and/or (iv)                  attendance. Additionally, timekeepers did not
background investigations were not conducted on             receive annual refresher training or perform annual
contract personnel working in sensitive areas.              desk audits, as required by VA policy. As a result,
                                                            physicians were paid for time when they were not
Pharmacy                                                    present for their scheduled tours of duty. Because
                                                            part-time physician time and attendance was not
z VA has established policies, procedures, and              administered appropriately, there was no assurance
guidelines for pharmacy security and                        VA received services required.
accountability of controlled substances and other
drugs. Pharmacy security and/or controlled                  Health Care Management
substances accountability was deficient at 10 of
the 11 facilities reviewed. The lack of                     z Inspectors reviewed the homemaker/home
management oversight at facility and VISN levels            health aide program at 8 facilities. At 7 of 8
contributed to inefficient practices and to                 facilities, initial interdisciplinary patient
weaknesses in drug accountability and security.             assessments to determine clinical eligibility were
                                                            not properly documented. Administrative oversight
z Controlled substance inspection procedures                of program operations needed to be strengthened at
were inadequate to ensure compliance with VHA               5 of 8 facilities. The need for continued services
policy and Drug Enforcement Administration                  was not reviewed every 90 days, as mandated by
regulations at 9 of 11 facilities where controlled          VHA directive, in 3 of 8 facilities. At 3 facilities,
substances were reviewed. Unannounced                       program managers were not obtaining information
inspections and inventories were not properly
conducted, unusable drugs were not disposed of
timely or properly, and discrepancies between
inventory results and recorded balances were not
reconciled in a timely manner.

z Improvements were needed in pharmacy
security at 4 of 7 sites where security controls
were reviewed. Security could be better enforced
by restricting and consistently monitoring access to
secured pharmacy areas, and by ensuring
electronic alarm systems are appropriately
connected and operational.
                                                                            VA Medical Center
                                                                               Bronx, NY




                                                       9

Combined Assessment Program

related to quality assurance from community health            Outpatient Surveys
agencies providing services, as required by VHA
directive. Formal agreements or contracts to                  We surveyed 200 VA outpatients at 10 facilities to
ensure that rates were appropriate were not utilized          ascertain their satisfaction with the care. We
at 3 facilities. Patient satisfaction with                    interviewed patients in primary care, mental
homemaker/home health aide services was high at               health, or specialty care clinics. We also
all 8 facilities.                                             surveyed outpatients who were in waiting areas of
                                                              the various supportive services such as pharmacy,
                                                              radiology, and laboratory.
Survey Results
                                                              z    Overall, 97 percent of the outpatients rated the
Inpatient Surveys                                             quality of care as good, very good, or excellent.
                                                              Ninety-five percent of the outpatients stated that
OHI completed 141 inpatient interviews in 9 VHA               they would recommend medical care to eligible
facilities during the semiannual period. We                   family members or friends. Ninety-six percent of
surveyed patients in the areas of medicine,                   the respondents told us that their treatment needs
surgery, mental health, intensive care, nursing               were being addressed to their satisfaction.
homes, and special emphasis programs.
                                                              z Eighty-six percent of the outpatients told us

z    Patients’ perceptions of the care received at            that they felt involved in decisions about their care.
these facilities was rated favorable (over 80
                                                              z Conversely, only 67 percent of the outpatients
percent) in most areas. Of a sample of 125, almost
1 in 8 patients (13 percent) felt their call lights           told us that they were generally able to schedule
were not answered within 5 minutes, and 19                    appointments with their primary care providers
percent (nearly 1 in 5) felt they were not advised            within 7 days of their request.
about how to manage their care needs at home.
Overall, 98 percent of the patients rated the quality         z   When outpatients were referred to specialists,
of care to be excellent, very good, or good, a 23             only 68 percent told us that they were given
percent increase from the last report. Results of             appointments and were assessed by the specialists
these findings were discussed with facility                   within 30 days of the referrals.
managers during site visits.
                                                              z Only 66 percent of the outpatients told us they
                                                              received their prescriptions within 30 minutes;
                                                              however, 83 percent stated that they received
                                                              counseling by pharmacists when they received new
                                                              prescriptions.

                                                              z Eighty-six percent of the respondents said that
                                                              they received their refills in the mail before they
                                                              ran out of their medications.

                                                              Physical Plant Environment

                                                              We inspected 59 clinical care areas at 8 facilities,
                                                              including outpatient clinic areas, inpatient wards,
                VA Medical Center
                                                              emergency rooms, intensive care/coronary care
                  Lexington, KY




                                                        10

                                                                            Combined Assessment Program

units, nursing home units, psychiatry units, and                Combined Assessment Program
rehabilitation areas.
                                                                Overview - Benefits
z Inspections showed that some managers needed
                                                                Deficiencies identified during CAP reviews in the
to improve ongoing processes to provide
                                                                management of veterans benefits programs were
unobstructed hallways, ensure privacy, identify and
                                                                discussed in a recently issued OIG summary report
provide better access to crash carts, secure
                                                                - Summary Report of CAP Reviews at VBA
medications, and maintain cleanliness. In addition,
                                                                Regional Offices June 2000 through September
in some facilities, patient representatives’ names,
                                                                2002.
locations, and phone numbers were not posted for
patients or family members who wanted to voice
complaints or concerns. We discussed surveys
                                                                “The CAP reviews were both comprehensive and
with managers during site visits.
                                                                helpful and provided an independent audit which
                                                                regional offices used to improve operations.
Employee Surveys
                                                                VBA is extremely satisfied with the CAP reports
                                                                received and with the opportunity to assist the
We surveyed employees at 10 facilities during this
                                                                OIG in refining the CAP review process.”
semiannual period using a combination of mailed
and web-based questionnaires. We discussed the                                       Under Secretary for Benefits
results of these surveys with managers during site
visits.
                                                                During this reporting period, the OIG staff
z    Seventy-six percent of the respondents believed            conducted a CAP assessment of VARO Nashville,
that the quality of care at their respective facilities         Tennessee. The purpose of the review was to
was either good, very good, or excellent. Seventy-              evaluate benefits claims processing, Benefits
one percent indicated that they would recommend                 Delivery Network (BDN) security, and selected
treatment at their respective facilities to family              financial and administrative activities.
members or friends.

z    Sixty percent of the responding employees
                                                                Summary of Findings
indicated that staffing was not sufficient in their
respective work areas to provide adequate care to               The CAP assessment of VARO Nashville,
all patients. Eighty-three percent of the responding            Tennessee, identified the following:
employees reported that they were generally
comfortable in self-reporting errors that involved              z   Timeliness of compensation and pension
patient care, 72 percent indicated that they were               (C&P) claims processing needed improvement.
comfortable reporting errors that involved                      Avoidable processing delays and/or procedural
colleagues, and 70 percent believed that reported               errors affected workload and timeliness of service.
errors were thoroughly investigated.                            Improved monitoring of pending workload could
                                                                have detected errors and prevented delays in
z   Forty percent of employees indicated that                   processing.
housekeeping support was inadequate to maintain
                                                                z Staff did not take timely or accurate actions on
patient safety and general cleanliness. Thirty-four
percent of employees reported that work orders for              system error messages and notices of death of C&P
repairs were not addressed promptly.                            beneficiaries, or perform supervisory reviews of
                                                                awards when the benefit was less than $25,000 and




                                                          11

Combined Assessment Program




               VA Regional Office
                 Nashville, TN

the one-time payment was retroactive for more
than 2 years.

z   VARO management needed to improve
oversight of field examinations and analyses of
fiduciary estate accountings to ensure that
beneficiary assets are protected.

z Timeliness of vocational rehabilitation and
employment claims processing needed
improvement. Data was inaccurate and claims
processing and case monitoring errors were noted.

z   VARO management needed to ensure that all
requests for loan guaranty convenience checks
were adequately documented to reduce risk for
fraud.




                                                    12

OFFICE OF INVESTIGATIONS

Mission Statement
                                                                                                  Adm inis trative
    Conduct investigations of criminal activities                                                 Investigations
                                                                   Criminal
    and administrative matters affecting the                    Investigations                         4%
    programs and operations of VA in an                              92%
    independent and objective manner, and                                                         Analysis
    assist the Department in detecting and                                                          4%

    preventing fraud and other violations.

The Office of Investigations consists of three
divisions.                                                     I. CRIMINAL
I. Criminal Investigations - The Division is                   INVESTIGATIONS
primarily responsible for conducting investigations
into allegations of criminal activities related to the         DIVISION
programs and operations of VA. Criminal
violations are referred to the Department of Justice
for prosecution. The Division is also responsible              Mission Statement
for operation of the forensic document laboratory.
                                                                   Conduct investigations of criminal activities
II. Administrative Investigations - The Division is                affecting the programs and operations of VA
responsible for investigating allegations, generally               in an independent and objective manner, and
against high-ranking VA officials, concerning                      assist the Department in detecting and
misconduct and other matters of interest to the                    preventing fraud and other criminal
Congress and the Department.                                       violations.

III. Analysis and Oversight - The Division is                  Resources
responsible for the oversight responsibilities of all
Office of Investigations operations through a                  The Criminal Investigations Division has 124 FTE
detailed, recurring inspection program. The                    for its headquarters and 22 field locations. These
Division is the primary point of contact for law               individuals are deployed in the following VA
enforcement communications through the National                program areas.
Crime Information Center, the National Law
Enforcement Telecommunications System, and the
Financial Crimes Criminal Enforcement Network.
                                                                                                 VHA
                                                                                                 33%
Resources
                                                                     VBA
                                                                     60%
The Office of Investigations has 136 FTE                                                        A&MM
allocated to the following areas.                                                                7%




                                                         13

Office of Investigations

Overall Performance                                           Working closely with VA police, the office has
                                                              placed an increased emphasis on crimes
Output
                                                       occurring at VA facilities throughout the nation to
z 451 investigations were concluded during the
               help ensure safety and security for those working
reporting period.
                                            in or visiting VA medical centers. During this
                                                              semiannual period, OIG special agents have
Outcome
                                                      participated in/or provided support to VA police
z Arrests - 362
                                              in the arrest of 45 individuals who committed
z Indictments - 160
                                          crimes on VHA properties.
z Convictions - 288

z Pretrial Diversions - 14
                                   Patient Abuse
z Monetary benefits - $30 million ($20 million -

fines, penalties, restitutions, and civil judgments;
         z    A nursing assistant was sentenced to serve 70
$6.3 million - efficiencies/funds put to better use;
         months’ incarceration followed by 3 years’
and $3.7 million - recoveries)
                               supervised release after being found guilty of one
z Administrative sanctions - 167
                             count of felony assault. The nursing assistant hit
                                                              an elderly patient who was in restraints at the time
Customer Satisfaction
                                        of the attack.
z Survey results showed an average rating of 4.9

out of a possible 5.0.
                                       Murder

Veterans Health                                               z    A joint investigation conducted by the VA OIG,
                                                              VA police, FBI, U.S. Department of Housing and
Administration                                                Urban Development (HUD), Food and Drug
                                                              Administration (FDA), and the police of Puerto
Fraud and other criminal activities committed                 Rico led to the indictment of 9 members from the
against VHA include actions such as patient                   Luis Llorens Torres Public Housing gang on
abuse, theft of Government property, drug                     multiple drug charges and unlawful possession of
diversion, bribery/kickback activities by                     firearms. Interrelated to the drug investigation, a
employees and contractors, false billings, and                gang member was indicted for murdering a VA
inferior products.                                            police officer. If convicted of the murder of a
                                                              Federal police officer, the gang member could
The Criminal Investigations Division investigates             potentially face capital punishment. All subjects
those instances of criminal activity against VHA              are pending trial.
that have the greatest impact and deterrent value.

The San Juan Star, San Juan, PR                                                     Thursday, February 20, 2003




                                                        14

                                                                                      Office of Investigations

Armed Robbery                                                                The Burlington Free Press

                                                                                   Burlington, VT

                                                                              Friday, October 11, 2002

z    A joint investigation between the VA OIG, VA
police, and FBI led to the arrest of an individual
after it was determined that the individual
conspired with two others in committing an armed
robbery of a VAMC outpatient pharmacy. The
other two individuals were previously indicted.
Investigation established that one of the individuals
posed as a flower delivery person to gain entry into
the VAMC pharmacy. Upon entering, one subject
displayed a shotgun as a second individual charged
into the pharmacy and demanded that the narcotics
vault be opened. The two suspects then ordered
three pharmacy employees into the vault, tied their
hands, and ordered them to the ground. They
proceeded to steal large amounts of OxyContin and
other narcotics with a street value estimated to be
over $250,000. All three subjects are now pending             investigation disclosed the veteran made threats to
trial.                                                        “take out the VA” and threatened the lives of VA
                                                              employees. The veteran is a self-proclaimed
                                                              terrorist and told the employees he was on a jihad
Procurement Fraud                                             (holy war). After an arrest warrant had been
                                                              issued and while the individual was still at large, he
z   A Grand Jury returned an indictment charging              contacted various news agencies and continued to
four officials of a manufacturing company with                make bomb threats against VA, threatened to kill a
multiple violations of Federal procurement law. A             VA police officer, and appeared at a VA outpatient
joint investigation with the FDA Office of Criminal           clinic stating to VA employees that his van was
Investigations revealed that officials of the now             filled with explosives. At the VA outpatient clinic,
defunct corporation manufactured, marketed, and               he was arrested and his van was searched. Various
sold over 160 sterilizers to Government and private           devices were found, including propane, that if
hospitals nationwide. The corporation had not                 properly connected could have caused an
received premarket approval by FDA for safety or              explosion. No bomb was found in the vehicle. The
performance, a prerequisite to lawfully selling the           veteran has an extensive criminal history, to
systems. Each sterilization system was sold at an             include serving 10 years for planting a bomb at an
average cost of $100,000. Ten VAMCs purchased                 airport. He is currently being held in Federal
12 systems at a total cost of approximately $1.1              custody, awaiting trial.
million. The systems were purchased through
individual VAMC contracts and on a Federal                    Theft of Government Monies
Supply Schedule contract.
                                                              z   A clinical psychologist convicted of multiple
Threats                                                       counts of defrauding Federal and state health care
                                                              programs was sentenced to 3 months’
z A veteran was indicted on various counts of
                                                              imprisonment and ordered to make restitution of
mailing and telephoning threatening                           $29,370. The term of imprisonment is to run
communications to VA employees. The                           concurrent with a sentence for Medicaid fraud and




                                                        15

Office of Investigations

will be followed by 3 years’ probation.                         unauthorized purchases totaling $108,748 had
Additionally, as a result of a civil suit filed against         been made for endoscopy equipment. The
the psychologist for violating the False Claims Act,            equipment was shipped from several companies
a default judgment of $102,271 was ordered as                   and held for pick-up by the subject. Some of the
was a $20,000 fine. A joint investigation                       property was recovered. The VA OIG and local
conducted with the state Office of the Attorney                 law enforcement conducted this investigation
General, Medicaid fraud unit, confirmed the                     jointly.
psychologist submitted claims for services he never
provided.                                                       Theft of Benefits

Manslaughter                                                    z An individual was sentenced to 2 months’
                                                                home detention and 3 years’ probation, and ordered
z   A former VAMC nurse was sentenced to 24                     to make restitution of $1,150. The individual pled
months’ imprisonment and 3 years’ supervised                    guilty to one count of making a false statement
release after pleading guilty to involuntary                    relating to health care matters for manufacturing a
manslaughter. An investigation conducted jointly                Department of Defense certificate of release or
with the FBI revealed the nurse administered an                 discharge from active duty form (DD Form 214) to
unauthorized dose of the sedative drug Diprivan                 receive VA medical benefits. The individual, a
(also known as Propofol) to a veteran under his                 licensed pharmacist, attempted to use a cover story
care. As a result, the veteran went into a coma,                of post-traumatic stress disorder when he presented
and died 12 days later. The nurse had originally                the fraudulent DD Form 214. The Assistant U.S.
been indicted for second-degree murder.                         Attorney that prosecuted the case advised that the
                                                                Federal felony conviction would also prohibit the
                     Sun-Sentinel
                              individual from acting as a pharmacist in any
                  Ft. Lauderdale, FL
                           capacity.
              Thursday, October 31, 2002

                                                                Veterans Benefits
                                                                Administration
                                                                VBA provides wide-reaching benefits to veterans
                                                                and their dependants including pension and
                                                                compensation payments, home loan guaranty
                                                                services, vocational rehabilitation and
                                                                employment service, and educational
                                                                opportunities. Each of these benefits programs is
                                                                subject to fraud by those who wish to take
Theft of Government Property                                    advantage of the system. For example,
                                                                individuals submit false claims for service-
z An individual was sentenced to serve 72                       connected disability, third parties steal pension
months’ imprisonment and ordered to pay                         payments issued after the unreported death of the
restitution of $12,000 after pleading no contest to             veteran, individuals provide false information so
dealing in stolen property. An investigation                    that veterans qualify for VA guaranteed property
determined that a VAMC Government purchase                      loans, equity skimmers dupe veterans out of their
card account number had been stolen and                         homes, and educational benefits are obtained




                                                          16

                                                                                    Office of Investigations

under false representations. The Office of                   company was negotiating with the bank on a new
Investigations spends considerable resources in              repayment schedule. When the stay of foreclosure
investigating and arresting those who defraud                would finally be lifted, the bank would foreclose
operations of VBA.                                           and the homeowners would be left with a larger
                                                             debt.
Death Match Project
                                                             z A Federal Grand Jury indicted an individual on
z The VA OIG Information Technology and Data                 multiple counts, including violations of bankruptcy
Analysis Division is conducting an ongoing                   fraud, false statements related to a bankruptcy, and
proactive project in coordination with the Office of         mail fraud. The indictment was based on
Investigations. The match is being conducted to              information gathered during a joint investigation by
identify individuals who may be defrauding VA by             the VA OIG, FBI, and HUD OIG. The
receiving VA benefits intended for veterans who              investigation revealed that the individual ran an
have passed away. When indicators of fraud are               equity-skimming scheme by purchasing numerous
discovered, the matching results are transmitted to          properties from VA and through HUD insured
VA OIG investigative field offices for appropriate           programs using false identifying information. The
action. To date, the match has identified 6,775              individual then rented the houses and kept the
possible cases. Over 1,157 investigative cases               money for personal use rather than paying the
have been opened. Investigations have resulted in            mortgages. When the mortgage holders began
the actual recovery of $7.6 million, with an                 foreclosure proceedings on the properties, the
additional $6.9 million in anticipated recoveries.           individual filed numerous bankruptcies to stall the
The 5-year projected cost savings to VA is                   foreclosures. Ultimately, all the properties went
estimated at $20.5 million. To date, there have              through foreclosure, resulting in a monetary loss
been 70 arrests with several additional cases                exceeding $100,000 to the Government.
awaiting judicial actions.
                                                             Fiduciary Fraud
Equity Skimming
                                                             z    A veteran’s fiduciary pled guilty to one count
z A husband and a wife were each charged with                of fraudulent acceptance of payments. The
mail and bankruptcy fraud and sentenced to 10                individual could receive up to 5 years’
years’ and 6½ years’ incarceration, respectively,            imprisonment, a $250,000 fine, or both. The
after they were found to be operating a                      investigation disclosed the appointed financial
sophisticated equity-skimming scheme (which                  guardian for this disabled veteran diverted in
included dozens of VA properties) for several                excess of $100,000 of the veteran’s VA and Social
years. They also must make full restitution of $1.6          Security benefits for her own personal use. In
million to the victims of their criminal activity.           addition, she used the veteran’s name and assets to
The subjects convinced homeowners that they                  qualify for a home loan.
could rescue them from bank foreclosure by having
the homeowners deed a partial interest in the                Identity and Benefits Fraud
property to their fictitious company. The subjects
would then declare bankruptcy in the name of the             z The daughter of a deceased VA beneficiary
fictitious company and obtain a stay of                      pled guilty to one count of using a false means of
foreclosure. During the period that the stay of              identification. The joint VA OIG and U.S. Secret
foreclosure was in place, the subjects would                 Service investigation disclosed the daughter
demand payments from the homeowners. The                     assumed her deceased mother’s identity in order to
homeowners were falsely led to believe that the              obtain and cash her mother’s VA benefit checks.




                                                       17

Office of Investigations

After her mother died, VA continued to mail U.S.             During the time period that she was president of
Treasury checks to the beneficiary’s address from            the union (1998 to 2001), she embezzled
June 1989 to August 2001. In 1993, to further                approximately $60,000. She appeared before the
perpetuate the scheme, the daughter fraudulently             U.S. Magistrate and was released on her own
obtained a state identification card in her mother’s         recognizance.
name and had a photo taken while wearing a wig
and glasses. When the identification card expired,           z    A former VARO supervisor was sentenced on
she returned to have it renewed. Fingerprint                 charges of theft of Government property and
comparisons and handwriting exemplars confirmed              conspiracy to launder money. The supervisor, the
the daughter negotiated all the checks issued by             last of 12 defendants sentenced in this case, was
VA. The 12-year loss to VA totaled $133,366.                 sentenced to 13 years’ imprisonment and 3 years’
                                                             supervised release, and ordered to pay over $11.2
Education Benefits Fraud                                     million in restitution. The sentencing was the
                                                             result of a massive VA OIG and FBI investigation
z After a month-long civil trial in U.S. District            that uncovered a scheme to manipulate VA records
Court, a jury found 19 defendants guilty of                  to arrange for and generate fraudulent retroactive
submitting false claims to the VA for educational            disability benefits payments to co-conspirators.
assistance benefits. The 19 defendants are now               This OIG coordinated effort resulted in a
liable to the Government pursuant to the False               successful investigation and prosecution that netted
Claims Act for over $1.4 million in damages and              a cumulative total of 12 defendants, 474 months of
penalties. This trial was the first successful civil         incarceration, and over $34.4 million in restitution.
jury trial of a False Claims Act case. The verdict
in this trial now brings the total money recovered
through civil and criminal actions in this case to           “Recently read the article outlining the prison
over $4.5 million. This civil case stemmed from              terms and fines received by the 12 cases of fraud
an investigation of a kickback scheme at a                   your office discovered. Thank you for your
community college. The investigation, which                  dedication and professionalism your staff has
included a 6-month undercover operation, disclosed           displayed in bringing this scum to justice. I’m
that for more than 7 years about 400 veterans                proud of my VA.”
receiving VA educational benefits did not attend
classes in which they were enrolled. Instead, these                                A Disabled Combat Veteran
veterans paid kickbacks to instructors and their
assistants in order to ensure that monthly
certifications of attendance would be signed and             Disability and Workers’
passing grades would be received. Cases remain               Compensation Fraud
pending for 71 additional veterans involved who
have refused to settle.                                      z A veteran was convicted on 11 counts of mail
                                                             fraud and 2 counts of Federal employee disability
Theft and Embezzlement                                       fraud. This was a joint investigation between the
                                                             VA OIG, U.S. Department of Labor OIG, and the
z   The VA OIG arrested a VAMC program                       U.S. Postal Inspection Service. The veteran made
officer, the former president of a local chapter of          false and misleading statements and omitted
the American Federation of Government                        material facts to the Government in order to
Employees. An investigation revealed that she                qualify for disability and workers’ compensation
knowingly and willfully took funds and personal              benefits to which he would not have otherwise been
property of the members of the local chapter.                entitled. The veteran sought and received benefits




                                                       18

                                                                                      Office of Investigations

for his alleged disability, when he was actively              devices. Because of the nature of the veteran’s
involved in physical activities including dancing,            disability, he also received money for the purchase
hunting, horseback riding, bull riding, and                   and special adaptation of an automobile. The
attending college full time. The rodeo bull riding            veteran also received compensation for special
by the veteran was recorded on videotape. The                 adaptive housing. Total loss to VA exceeds
veteran’s ex-wife gave a statement that the veteran           $450,000.
used his cane and/or braces only on the days that
he had a medical examination appointment with the             z    A veteran was indicted on one count of theft of
VA or the post office. Loss to the Government was             Government money, five counts of wire fraud, and
$87,410.                                                      one count of making a fraudulent material
                                                              statement. For the last 17 years, the veteran has
Contract Fraud                                                defrauded VA by claiming to have post-traumatic
                                                              stress disorder due to his extensive combat
z    A corporation was ordered to pay a $1 million            experiences as a crew chief/door gunner on a
criminal fine and restitution of $1.29 million to the         helicopter in Vietnam. The veteran made claims
U.S. Government for false underground storage                 that included being shot down 12 times, going on
tank testing services performed by the corporation.           4-5 combat missions per day, suffering shrapnel
Federal facilities in 10 different Federal judicial           wounds, breaking his back in 8 places, having an
districts were involved. The corporation had pled             ear drum blown out in a rocket attack, and being
guilty to 10 felony counts of presenting false                fired upon by the enemy every day that he was in
claims and making false statements to the                     Vietnam. The joint VA OIG and FBI investigation,
Government. The pleas arose from an extensive                 which included interviews of his fellow soldiers,
investigation carried out by a task force involving           determined that the veteran was a helicopter
several Federal criminal investigative agencies, in           mechanic who saw no combat in Vietnam. The
which agents observed the corporation testers at              loss to the Government is $162,000.
facilities across the country. The false tests ranged
from failing to follow test protocol to “drive-by”            z The nephew of a deceased veteran was
tests where corporation testers were videotaped               sentenced to serve 5 years’ probation and ordered
driving up to the facility, driving away after a few          to make restitution to VA of $147,203. Results of
minutes, and then submitting false data for                   a death match with the Social Security
payment. The task force included agents from the              Administration (SSA) disclosed the veteran died in
VA OIG, Environmental Protection Agency OIG,                  March 1990, but VA was not notified of his death.
U.S. Postal Service OIG, FBI, and Defense                     A VA OIG investigation revealed the nephew
Criminal Investigative Service.                               submitted VA pension verification reports on which
                                                              he forged the signature of his deceased uncle.
Theft of Benefits                                             Additionally, the nephew fraudulently opened a
                                                              joint bank account by forging his deceased uncle’s
z An information was filed charging a veteran                 name. For more than 10 years, the perpetrator
with theft of Government funds. The investigation             accessed VA funds intended for his deceased uncle
disclosed that the veteran, who was rated 100                 and converted these funds to his own use.
percent disabled in 1998 for loss of the use of both
feet, faked his disability in order to receive VA             z   As a result of a joint investigation between the
disability compensation benefits. The veteran                 VA OIG and a fraud task force, a veteran was
claimed he could not walk without the use of                  indicted and arrested on charges that he defrauded
braces, crutches, or a wheelchair. In fact, the               VA by falsely claiming 10 children as dependents,
veteran could walk without the assistance of these            causing an increase in his VA pension benefits. In




                                                        19

Office of Investigations

addition, he defrauded charitable organizations and          buses. The mechanic, who received the $450,000
Government agencies involved in providing                    after the submission of the fraudulent invoices,
financial disaster relief to the families of those           turned all of the money (except for $10,000) over
killed in the terrorist attacks on the World Trade           to the veteran. The VA OIG has seized all 28
Center. The indictment alleges the individual                buses, which are being sold to recover some of the
falsely reported that his wife died in the terrorist         VA monies. The total loss to VA for funding this
attacks in order to obtain more than $136,000 in             veteran’s self employment plan was $634,000,
financial aid and disaster relief from various               which included costs for advertising, business
charities, and attempted to obtain at least $76,000          consultants, and accountants.
in benefits from other charities and Government
agencies. The total loss to VA was $19,034.                  Conspiracy and Bank Fraud
z A veteran was charged with five counts of                  z A VA employee and three other individuals
fraud and false statements and subsequently                  were indicted on one count of conspiracy and eight
arrested. The veteran had been receiving 100                 counts of bank fraud. The joint investigation
percent VA disability and VA individual                      between the VA OIG, VA police, and U.S. Secret
unemployability benefits since 1999. He was also             Service determined the employee stole U.S.
receiving workers’ compensation from the U.S.                Treasury checks payable to homeless veterans
Postal Service for a back injury he claimed was              whose checks were addressed to a VAMC. The
totally debilitating. However, video surveillance            employee subsequently provided the stolen checks
caught him mowing grass, lifting heavy equipment,            to one individual for negotiation at several banks in
repairing vehicles, and playing basketball for               return for monetary compensation. Further
lengthy periods of time. The aggregate                       investigation revealed that two additional
Government loss is $158,911, of which $71,938                individuals facilitated the negotiation of the stolen
represents the VA overpayment. This successful               checks and also received monetary compensation.
action resulted from a joint inquiry conducted by            The total loss is $90,264.
the VA OIG and U.S. Postal Service.
                                                             Federal Mail Fraud
z    A veteran and a conspirator were indicted and
were subsequently arrested on one count of                   z   The president of a construction company was
conspiracy, eight counts of wire fraud, and seven            sentenced to 24 months’ incarceration and 3 years’
counts of mail fraud. The veteran sought funding             probation, and ordered to pay restitution of $1.5
through VA’s vocational rehabilitation self-                 million. He previously pled guilty to Federal mail
employment plan for expenses involving a bus                 fraud charges. Between 1994 and 1997, this
transportation business. The veteran was                     contractor received multiple VA construction
specifically told that VA regulations did not allow          contracts for VAMC renovation work. In addition,
for the purchase of new buses, but that he could             he had contracts with the Army, Navy, and U.S.
refurbish two buses that he allegedly owned to a             Postal Service. The president of the company
like new condition. The veteran and a mechanic               applied (by mail) for and received Government
then became involved in a conspiracy to defraud              progress payments by certifying that his suppliers
VA by submitting $450,000 in fraudulent invoices             and subcontractors had been paid. However, as the
sent through the mail for allegedly refurbishing two         president of the company well knew, he
buses. The joint VA OIG and Postal Inspection                consistently failed to pay the suppliers and
Service investigation revealed that all of the               subcontractors. As a result of his action, a total of
invoices were fraudulent and rather than                     10 significant Government construction programs
refurbishing 2 buses, the veteran purchased 28               were delayed, valued small businesses suffered




                                                       20

                                                                                    Office of Investigations

financial difficulties, and his bonding company             z A VA beneficiary had been wanted for several
declared bankruptcy. As part of the sentencing, the         years for parole violations involving attempted
president of the company has been barred for life           distribution of cocaine, attempted possession with
from receiving any future Government contracts.             intent to distribute cocaine, and the Bail Reform
                                                            Act. The VA OIG and U.S. Marshals Service
Bribery                                                     located the beneficiary at an address reflected in
                                                            his VA claim folder. He was apprehended and
z An individual waived indictment and pled                  turned over to authorities for further processing.
guilty to a one-count information charging him
with bribery. He admitted that from 1998 to 2001,           z VA OIG agents along with state investigation
while employed as a VAMC transportation                     agents arrested a fugitive wanted on a parole
specialist, he received bribes from an automobile           violation warrant for aggravated kidnapping. The
repair company to approve work on VA vehicles               VA OIG provided intelligence and assisted in field
that was not needed, not done, and/or previously            operations. The OIG also provided information
billed. In return, the president of the company             that resulted in ultimately terminating the fugitive’s
gave the individual items of value, cash, and               benefits checks. Photographs were circulated and
checks. The individual admitted that the amount of          a briefing was given to the VARO on the fugitive
the fraudulent charges incurred by his actions cost         status of the veteran. Several months later, the
the Government between $120,000 and $200,000.               fugitive attempted to enter the VARO to inquire
                                                            about the status of his benefits checks, but he was
Fugitive Felon                                              turned away by security because he had a knife on
                                                            his person. A member of the VARO recognized the
Program                                                     fugitive from the pictures and immediately alerted
                                                            the VA OIG. Agents were able to take the fugitive
The Office of Investigations has established a              into custody and to subsequently turn him over to
fugitive felon program to identify VA benefits              the state investigation agents.
recipients as well as VA employees who are
fugitives from justice. The program conducts                OIG Forensic Document
computerized matches between fugitive felon files
of law enforcement organizations and VA                     Laboratory
personnel records as well as files of veterans who
have received benefits from VA. Information on              The OIG operates a nationwide forensic document
the identified fugitives is provided to law                 laboratory service for fraud detection that can be
enforcement organizations to assist in                      used by all elements of VA. The types of requests
apprehension. Fugitive information is then                  routinely submitted to the laboratory include
provided to VA to suspend benefit payments and              handwriting analysis, analysis of photocopied
initiate recovery action.                                   documents, and suspected alterations of official
                                                            documents.
To date, Memoranda of Understanding/
Agreements have been completed with the U.S.                There were a total of 24 completed laboratory
Marshals Service, the State of California, and              cases during this semiannual period.
most recently, the National Crime Information
Center. Still in the initial phase, the program has
identified more than 10,000 matches. Two recent
investigations dealing with fugitives are detailed
below.




                                                      21

Office of Investigations


      Laboratory Cases for the Period
                                                              II. ADMINISTRATIVE
                                        C a se s
                                                              INVESTIGATIONS
            Requester
                                       Completed              DIVISION
 OIG Office of Investigations                 9
 VA Top Management                            2               Mission Statement
 VA Regional Offices                         12                   Independently review allegations and
                                                                  conduct administrative investigations
 Office of Security and Law                                       generally concerning high-ranking senior
                                              1
 Enforcement                                                      officials and other high profile matters of
               Total                         24                   interest to the Congress and the Department.

                                                              Resources
The following are examples of completed
laboratory reports.                                           The Administrative Investigations Division has six
                                                              FTE allocated. The following chart shows the
z The theft of a veteran’s identity led to a                  percentage of resources used in reviewing
$248,000 loss for VA involving both financial and             allegations by program area.
medical benefits. A VA OIG investigation
developed evidence that was submitted to the
laboratory for examination. Through handwriting
and fingerprint analysis, the laboratory determined                                               VACO
that the veteran’s brother, who had no prior                                                       5%
military service, stole the identity and proceeded to
                                                                                                     NCA
obtain various VA benefits.                                        VHA
                                                                                                     5%
                                                                   85%
z VA OIG investigated a veteran who allowed a                                                       VBA
person with no prior military record to use his                                                     5%
identity to facilitate treatment at a VAMC. During
the same time period, this same veteran proceeded
to use the identity of yet another veteran to receive
treatment at a VAMC as well as to steal a U.S.
Treasury check made payable to the true veteran.
The laboratory determined that the check
                                                              Overall Performance
endorsement was a forgery. Fingerprint
examinations linked the thief to the stolen check.            Output

                                                              z   The Division closed 15 cases.

                                                              z   The Division issued nine reports (including one
                                                              on a case still open) and two advisory memoranda.
                                                              Five cases resulted in administrative closures.




                                                        22

                                                                                     Office of Investigations

Outcome                                                      director, and to ensure action was taken against the
                                                             corporation’s executive director.
z VA managers agreed to take 26 administrative
sanctions, including personnel actions against 12            Acceptance of Pharmaceutical
officials, and corrective actions in 14 instances to         Company Fees and Donations
improve operations and activities. The corrective
actions included directing an employee to return             z An administrative investigation substantiated
fees and donations improperly accepted from                  that a pharmacy chief violated the Standards of
pharmaceutical companies; issuing bills of                   Ethical Conduct for Employees of the Executive
collection to recoup salary paid to a physician for          Branch by accepting fees from pharmaceutical
hours not worked, and to recoup appropriated                 companies for speaking on topics related to his
funds used for personal expenses; transferring               official duties, and by engaging in speaking
compensation received by employees from the                  activities, paid for by pharmaceutical companies,
general post fund to the U.S. Treasury; and                  that conflicted with his official duties. The chief
developing a policy addressing the receipt of                attempted to distance himself from the
honoraria.                                                   pharmaceutical companies by channeling fees
                                                             through a third party, but knew that
A sample of the Administrative Investigations                pharmaceutical companies were the source of the
Division reports issued during this period is                fees and personally arranged to accept them. The
provided below. These reports address serious                investigation further substantiated that the
issues of misconduct against high-ranking officials          pharmacy chief violated the Standards of Ethical
and other high profile matters of interest.                  Conduct by accepting donations from
                                                             pharmaceutical companies, through the affiliated
Veterans Health                                              medical school, to pay for his travel and other
                                                             expenses. The donations were, in effect, gifts to
Administration                                               him. VHA officials agreed to take appropriate
                                                             administrative action against the chief for these
Nonprofit Research and Education                             improprieties, direct him to return the fees and
Corporation                                                  donations he improperly accepted, and take other
                                                             corrective action.
z An administrative investigation substantiated
that a medical center director and the executive             Physician Time and Attendance
director of the affiliated nonprofit research and
education corporation used the corporation’s funds           z Two administrative investigations
for unauthorized purposes, including public                  substantiated that three full-time physicians
relations activities, meals, transportation, and             misused their official time by treating non-VA
uniforms. The medical center director, who                   patients at affiliated medical schools, for
received thousands of dollars in cash from the               compensation, during their VA tour of duty. The
nonprofit corporation, did not deposit or account            supervisors of two of the physicians were aware of
for the funds as required. The corporation’s                 their activities. VHA agreed to take appropriate
executive director also did not retain petty cash            administrative action against the three physicians
disbursement records as required. VHA                        and the supervisors, and to recoup the salary paid
management agreed to take appropriate                        to one of the physicians when he was not present at
administrative action against the medical center             VA.




                                                       23

Office of Investigations




                           24

OFFICE OF AUDIT

Mission Statement                                            In addition, the Office of Audit’s Contract Review
                                                             and Evaluation Division has 25 FTE authorized for
    Improve the management of VA programs                    reimbursement under an agreement with the VA
    and activities by providing our customers                Office of Acquisition and Materiel Management.
    with timely, balanced, credible, and                     This division conducts preaward and postaward
    independent financial and performance                    reviews of certain categories of VA contracts.
    audits and evaluations that address the
    economy, efficiency, and effectiveness of                Overall Performance
    VA operations, and that identify
    constructive solutions and opportunities for             Output

    improvement, and to conduct preaward                     z We issued 23 audits, evaluations, and reviews

    and postaward reviews to assist contracting              for an output efficiency of 1 report per 6.8 FTE

    officers in price negotiations and to ensure             during this 6-month period. We also issued an

    reasonableness of contract prices.                       additional 30 contract review reports, for an

                                                             efficiency of 1.2 reports per FTE for the 6-month

Resources                                                    period.


                                                             Outcome

The Office of Audit has 176 FTE allocated for its
                                                             z Recommendations to enhance operations and

headquarters and 8 operating divisions located
                                                             correct operating deficiencies have associated

throughout the country. The following chart shows
                                                             monetary benefits totaling approximately $3.5

the allocation of resources used in auditing each of
                                                             million. In addition, contract reviews identified

VA’s major program areas.
                                                             monetary benefits of about $56 million associated

                                                             with the performance of preaward and postaward

                                                             contract reviews.

                                   IT
     Management                                              Customer Satisfaction

                                  15%
        10%                                                  z Customer satisfaction with performance and

                                                             financial audits and evaluations during this

                                        VBA                  reporting period was 4.0 on a scale of 5.0. The

                                        22%                  average customer satisfaction rating achieved for

                                                             contract reviews was 4.3 out of a possible 5.0.

       VHA
       34%
                                      A&MM                   Audits completed during the period identified

                                       19%                   opportunities to improve services to veterans, and

                                                             identified savings that could be used to increase

                                                             services to veterans. The following summarizes

                                                             some of the audits completed during the reporting

                                                             period organized by VA component: VBA, Office

                                                             of Management, and Office of Information

                                                             Technology.





                                                       25

Office of Audit


Veterans Benefits                                            Office of Management
Administration                                               VA’s Consolidated Financial
                                                             Statements
Implementation of Government
Performance and Results Act of 1993                          Issue: VA’s Consolidated Financial
in VA                                                           Statements for FYs 2002 and 2001.
                                                             Conclusion: Audit resulted in an
Issue: Data used to compute the                                 unqualified opinion, but significant
   rehabilitation rate was not accurate.                        control weaknesses and
Conclusion: VBA needs to provide                                noncompliance items still remain.
   additional training and enhance                           Impact: Improved stewardship of VA
   accountability of supervisors.                               assets and resources.
Impact: Accuracy of the rehabilitation rate.
                                                             The OIG contracted with the independent public
The audit was conducted to determine whether the             accounting firm Deloitte & Touche LLP to
data used by VBA officials to report the                     perform the audit. The OIG defined the
rehabilitation rate for FY 2000 was accurate. This           requirements of the audit, approved the audit plans,
audit was one in a series of audits assessing the            monitored the audit, and reviewed the draft
accuracy of data used to measure VA                          reports. The independent auditors’ report provided
performance in accordance with the Government                an unqualified opinion on VA’s FY 2002 and 2001
Performance and Results Act of 1993. Audit                   consolidated financial statements. We agree with
results show that data used to compute the                   the auditors’ opinion and with the conclusions in
rehabilitation rate reported for FY 2000 was not             the related report on VA’s internal control over
accurate. Accordingly, we cannot attest to the               financial reporting and compliance with laws and
accuracy of the rehabilitation rate included in VA’s         regulation.
Annual Accountability Report for FY 2000. To
improve the accuracy of data used to compute the             The auditors’ report on internal control discusses
rehabilitation rate, we recommended the Under                two material weaknesses concerning: (i)
Secretary for Benefits: (i) provide additional               information technology security controls, and (ii)
training for VARO personnel who make decisions               integrated financial management. The report also
to classify veterans as rehabilitated or                     discusses three reportable conditions that, while
discontinued, and (ii) enhance accountability of             not considered material weaknesses, are
VARO supervisors for those decisions. In                     significant system or control weaknesses that
addition, we recommended that VBA headquarters               could adversely affect the recording and reporting
officials strengthen oversight of VARO personnel             of the Department’s financial information. The
to ensure the decisions to classify veterans as              three reportable conditions are: (i) application
rehabilitated or discontinued were timely and                program and operating system change controls, (ii)
accurate. The Under Secretary concurred with                 loan guaranty business process, and (iii)
our recommendations and provided acceptable                  operational oversight.
implementation plans. (Accuracy of VA Data
Used to Compute the Rehabilitation Rate for FY
2000, 01-01613-52, 2/6/03)




                                                       26

                                                                                               Office of Audit

The report on compliance with laws and                      Issue: Health care resource contracts.
regulations continues to conclude that VA is not in         Conclusion: VA can negotiate reduced
substantial compliance with the financial                      contract costs.
management system requirements of the Federal               Impact: Potential better use of $3 million.
Financial Management Improvement Act of 1996.
The internal control issues concerning an                   We completed reviews of 14 proposals from VA
integrated financial management system and                  affiliated medical schools involving the acquisition
information technology security controls indicate           of scarce medical specialists’ services. We
noncompliance with the requirements of the Office           concluded that the contracting officers should
of Management and Budget (OMB) Circular                     negotiate reductions of $3 million to the proposed
 A-127, “Financial Management Systems,” which               contract costs because of differences between the
incorporates by reference OMB Circulars A-123,              proposed costs for the services solicited and the
“Management Accountability and Control,” and                costs the affiliate could justify during the reviews.
 A-130, “Management of Federal Information
Resources.”
                                                            Postaward Contract Reviews
The Assistant Secretary for Management stated
                                                            Issue: Contractor overcharges for
he concurs with the reported findings and
                                                               pharmaceuticals and medical supplies.
recommendations. We will follow up on these
                                                            Conclusion: Overcharges were
findings and evaluate implementation of corrective
                                                               disclosed.
actions during our audit of VA’s FY 2003
                                                            Impact: Recovery of more than
consolidated financial statements. (Report of the
                                                               $16 million.
Audit of the Department of Veterans Affairs
Consolidated Financial Statements for Fiscal
                                                            z We completed nine reviews of vendors’
Years 2002 and 2001, 02-01638-47, 1/22/03)
                                                            contractual compliance with the specific pricing
                                                            provisions of their FSS contracts. The reviews
Preaward Contract Reviews                                   resulted in recoveries amounting to $16 million.
Issue: Federal Supply Schedule (FSS)                        z  We completed three drug pricing Public Law
   vendors’ best prices.                                    102-585 compliance reviews at pharmaceutical
Conclusion: Vendors can offer better                        vendors, with recoveries of $133,000.
   prices to VA.
Impact: Potential better use of $37 million.                OIG efforts to maintain an aggressive postaward
                                                            contract review program resulted in numerous
Preaward reviews of four FSS and direct delivery            companies’ submitting voluntary disclosures and
offers contained recommendations that have the              refund offers for overcharges on their contracts
potential better use of $37 million.                        with VA. Postaward contract reviews are a major
Recommendations to negotiate lower contract                 source of recoveries to VA’s Revolving Supply
prices were made because the manufacturers                  Fund. These recoveries are a result of VA’s work
were not offering the most favored customer                 as a team, with the Office of Acquisition and
prices to FSS customers when those same prices              Materiel Management, Office of General Counsel,
were extended to commercial customers                       and VHA, participating in an effort to ensure that
purchasing under similar terms and conditions as            VA’s contracts are fairly priced.
the FSS.




                                                      27

Office of Audit

Office of Information and                                    management approach has not worked, with a
                                                             continuing unacceptable security posture for the
Technology                                                   Department as a whole. On August 6, 2002, the
                                                             Secretary of Veterans Affairs issued a
Security Controls                                            memorandum centralizing the Department’s IT
                                                             security program, including authority, personnel,
                                                             and funding, in the Office of the Department CIO,
Issue: VA’s information security program.
                                                             effective October 1, 2002. In response to our
Conclusion: VA’s programs and sensitive
                                                             request, the CIO provided details on the
   data are vulnerable to destruction,
                                                             centralization of the IT security program under his
   manipulation, and inappropriate
                                                             office. We made a series of recommendations to
   disclosure.
                                                             the CIO to address the information security
Impact: Improved automated data
                                                             vulnerabilities identified by the audit. The CIO
   processing security.
                                                             agreed with the findings and recommendations and
                                                             provided acceptable implementation plans.
                                                             However, the completion of some of VA’s priority
The audit evaluated VA information security
                                                             security remediation efforts is dependent on
controls and security management. While
                                                             receipt of additional budget resources. Necessary
progress has been made, much work remains to
                                                             budget resources need to be obtained as soon as
implement key IT security initiatives, establish a
                                                             possible to complete all of VA’s priority security
comprehensive integrated VA-wide security
                                                             remediation efforts. This will provide the
program, and fully comply with the Government
                                                             opportunity to improve VA’s information security
Information Security Reform Act (superseded by
                                                             posture and reduce the level of risk to VA
the Federal Information Security Management
                                                             operations. (Audit of the Department of
Act). The audit found that significant information
                                                             Veterans Affairs Information Security Program,
security vulnerabilities continue to place the
                                                             01-02719-27, 12/4/02)
Department at risk of: (i) denial of service attacks
on mission critical systems, (ii) disruption of
mission critical systems, (iii) unauthorized access
to and improper disclosure of data subject to
Privacy Act protection and sensitive financial data,
and (iv) fraudulent payment of benefits. Based on
the audit results, VA information security should
continue to be identified as a Department material
weakness area under the Federal Managers’
Financial Integrity Act.

During the course of the audit, we advised the
Department’s Chief Information Officer (CIO)
that we would be recommending that the
Department centralize authority for implementation
of security remediation efforts. This year’s
security audit has shown that VA requires a
coordinated and focused security program to
address its significant information security
vulnerabilities. The Department’s decentralized




                                                       28

OFFICE OF HEALTHCARE INSPECTIONS
Mission Statement                                            z Completed 1 national program review and 2
                                                             summary evaluations and made 22
Promote the principles of continuous quality                 recommendations to improve patient care and
improvement and provide effective inspections,               safety in contract nursing homes, and to enhance
oversight, and consultation to enhance and                   communication of abnormal test results and
strengthen the quality of VA’s health care                   medical record privacy and security controls.
programs.
                                                             z   Completed 20 Hotline cases, which consisted
                                                             of reviews of 61 issues. Administratively closed 8
Resources                                                    of the cases and issued reports on the remaining 12
                                                             cases. Made 41 recommendations that will
The Office of Healthcare Inspections (OHI) has               improve the health care and services provided to

46 FTE allocated to staff headquarters and field             patients.

operations. The following chart shows the
allocation of resources utilized to conduct                  z   Provided clinical consultative support to

evaluations, inspections, CAP reviews, oversight,            investigators on 15 criminal cases.

and clinical consultations in support of criminal
cases.                                                       z Oversaw the work of VHA’s Office of the

                                                             Medical Inspector on 2 projects.


         Evaluations                Consults                 Outcome

            17%                       23%                    z Overall, OHI made or monitored the

                                                             implementation of 109 recommendations and 49

                                                             suggestions to improve the quality of care and

                                                             services provided to patients and their families.

                                                             VHA managers agreed with all of our

                                        Hotline              recommendations and provided acceptable

                                      Inspections
        CAPs
                                         24%                 implementation plans. VHA implementation

        35%                                                  actions will improve clinical care delivery,

                       Oversights
                                                             management efficiency, and patient safety, and will

                          1%
                                                             hold employees accountable for their actions.


                                                             Customer satisfaction

Overall Performance                                          z Survey results showed an average rating of 4.5

                                                             out of a possible best score of 5.0.

Output

z Participated in 11 CAP reviews to evaluate

health care issues and made 46 recommendations

and 49 suggestions that will improve operations and

activities, and the care and services provided to

patients.





                                                       29

Office of Healthcare Inspections

Veterans Health                                               and OIG reviews continue to exist. Not all VHA
                                                              CNH review teams analyzed Health and Human
Administration                                                Services Center for Medicaid and Medicare
                                                              Services data. This was evidenced by the fact
                                                              that 27 percent of the veterans at the medical
Summary Evaluations
                                                              facilities visited were placed in Medicaid and
                                                              Medicare Services “watch listed” homes. The
Issue: Community nursing home (CNH)                           medical facilities we visited had active contracts
   program.                                                   with 41 CNHs on the watch list. The 41 CNHs
Conclusion: Actions were needed to                            were cited 273 times for administrative and quality
   strengthen the oversight process and                       of care violations.
   reduce occurrence of adverse
   incidents.                                                 We found that CNH contract procedures and
Impact: Improved monitoring of veterans’                      inspection practices varied among VA medical
   care and reduced risk of adverse                           facilities. Contracts needed to be standardized.
   events.                                                    Medical record documentation needed
                                                              improvement. In addition, clinicians needed to
We conducted an evaluation of the CNH program                 routinely obtain performance indicators to better
to follow up on VHA's efforts to strengthen its               monitor occurrences at the CNH facilities and to
monitoring of CNH activities and to ensure that               coordinate performance improvement initiatives.
veterans receive good care in safe environments.              We also found that VHA CNH review teams do
We found that the U.S. General Accounting Office              not meet annually with VBA fiduciary and field
and OIG advised VHA to address oversight and                  examination supervisors to discuss veterans of
control vulnerabilities as far back as 1987. VHA              mutual concern, as required by VBA policy. The
policy has been under review since 1995. We                   absence of this communication link impedes VA's
believe this slow pace of revising policy led to              ability to adequately protect veterans from
variances in the way local managers and clinicians            financial exploitation and protect VA-derived
administer and monitor CNH activities. VHA                    payments.
published new CNH policy at the conclusion of this
review; however, it still warranted clarification and         We made 10 recommendations to VHA, and the
stronger controls.                                            Under Secretary for Health agreed with all but
                                                              one issue, pertaining to monitoring patients who
The veterans we visited were generally well cared             reside outside a 50-mile radius of VA facilities.
for and mostly satisfied with CNH services and                We agreed that no immediate action was needed
accommodations. We found 9 reported cases of                  on this issue, but we encouraged VHA managers
abuse, neglect, and financial exploitation during our         to closely oversee the adequacy of monitoring
reviews of the records of 111 veterans residing in            these veterans. The Under Secretary for Health
25 CNHs. This represented an average 8 percent                provided acceptable implementation plans for the
incident rate in the sample population. We also               remaining recommendations. The Under
found veterans not in our sample and non-veterans             Secretary for Benefits agreed with our
residing in VHA-contracted CNHs who were                      recommendation to coordinate efforts with VHA
subjected to serious adverse incidents. These                 in this area and establish proper procedures for
conditions emphasized the need for VHA to                     exchanging information. (Healthcare Inspection
strengthen its oversight controls.                            – Evaluation of VHA’s Contract Community
                                                              Nursing Home Program, 02-00972-44,
We found similar program vulnerabilities identified           12/31/02)
during previous U.S. General Accounting Office



                                                        30

                                                                         Office of Healthcare Inspections

Issue: Communication of abnormal test                        (Healthcare Inspection – Evaluation of VHA
   results.                                                  Procedures for Communicating Abnormal Test
Conclusion: Care could be improved by                        Results, 01-01965-24, 11/25/02)
   timely communication to providers and
   patients.                                                 Issue: Medical record privacy and
Impact: Timely treatment of patients’                           security.
   abnormal test results.                                    Conclusion: Opportunities exist to
                                                                improve practices.
We reviewed the adequacy of VHA                              Impact: Enhanced effectiveness of
communication procedures for conveying abnormal                 procedures for securing medical
test results to treatment providers and patients.               record data.
Managers at clinical laboratories visited had
established provider notification guidelines for             We conducted a review to evaluate VAMCs’
communicating abnormal test results; however,                compliance with VHA’s medical record privacy
compliance with the procedures varied.                       policies and security practices. We assessed
Collectively, policies in laboratory, pathology,             whether the physical layout of patient care areas
radiology, and primary care would benefit from a             supported medical record privacy, examined
comprehensive national VHA policy on                         internal control procedures used to monitor
communicating abnormal test results to treatment             employee access to restricted computer-based
providers and patients. Clinicians in the three              patient records, evaluated incident reporting
diagnostic services (clinical laboratory, anatomic           systems, determined the adequacy of formal
pathology, and radiology) had evidence in the                education and training programs regarding
records of notifying providers in 330 (83 percent)           protection of patient medical records and
of the 400 abnormal test results reviewed.                   management of confidential information, and
                                                             measured employees’ knowledge of computer
Efforts were needed to ensure that diagnostic                security policies and procedures and educational
clinicians document on their test reports when they          opportunities related to medical record privacy.
notify providers of the results. Some patients did           We found that the physical layout of nursing
not receive follow up care within 30 days of their           stations in several patient care areas hindered
abnormal diagnostic tests because the patients did           employees from providing adequate medical record
not keep their scheduled appointments, or the                data privacy. Seventy-eight percent of the
providers were not notified of the abnormal results.         employees we surveyed acknowledged that they
There were also problems with contacting the                 did not consistently log off their computers before
patients once they left the medical center (i.e.,            leaving their workstations. Eighty-seven percent
incorrect addresses or telephone numbers).                   of patient care areas inspected had designated
Managers at these facilities assured us that they            containers for disposal of sensitive patient
would review the patients in our sample, contact             information close to employee workstations;
each patient who did not receive follow up care,             however, the containers were often uncovered and
and provide the necessary care. The review also              unsecured. We found that managers did not
found that managers needed to evaluate the                   consistently monitor access to restricted computer-
effectiveness of the view-alert system to ensure             based patient medical records. Only 50 percent of
that the responsible treatment providers are                 the medical centers inspected had formalized
notified of all abnormal x-ray results. We made              automated information systems incident reporting
four recommendations to the Under Secretary for              systems, and 7 percent of the employees surveyed
Health, who agreed with the recommendations and              felt it was acceptable to share their computer
provided acceptable implementation plans.




                                                       31

Office of Healthcare Inspections

access and verify codes with co-workers. Two                  Inspection results showed the patient needed to be
VAMCs did not have full-time information security             placed in a medical intensive care bed, or an
officers and policies pertaining to the need for              equivalent level of care, but action was not taken
employees to maintain auditory privacy needs                  to ensure this occurred. We also found that the
improvement.                                                  patient apparently did not receive nutrition for 10
                                                              days. Nurses did not adequately document the
We made seven recommendations to strengthen                   patient's physical assessment findings.
medical record security and privacy practices.                Furthermore, pharmacy personnel did not timely
The Under Secretary for Health concurred with                 notify the ordering physician when a prescribed
our recommendations and provided acceptable                   antibiotic was not available in the pharmacy.
implementation plans. (Healthcare Inspection –
Evaluation of VHA Medical Record Security                     We did not substantiate the allegation that another
and Privacy Practices, 01-01968-41, 12/24/02)                 patient at the medical center suffered a delay in
                                                              diagnosis or treatment, or that yet another patient
Healthcare Inspections                                        did not receive adequate care in the emergency
                                                              room. We also did not substantiate a general
                                                              allegation that unsanitary conditions caused a
Issue: Suspicious deaths.
                                                              disproportionate number of infections at the
Conclusion: Actions were needed to
                                                              medical center. We made five recommendations
   ensure appropriate level of care and
                                                              to improve care and services. The VISN Director
   timeliness of treatment.
                                                              and VAMC Director concurred with the findings
Impact: Improved care and services for
                                                              and provided acceptable implementation plans.
   inpatients.
                                                              (Healthcare Inspection – Patient Care and
                                                              Management Issues at the Department of
We did not substantiate allegations of three                  Veterans Affairs Medical Center San Juan,
suspicious deaths. However, in one case, we did               Puerto Rico, 01-02341-02, 10/4/02)
identify several patient care lapses concerning one
patient. As this patient was seriously ill throughout         Issue: Wound care.

the hospitalization, we could not say with certainty          Conclusion: Nurses did not provide

whether these lapses affected his outcome.                       adequate care for a patient’s wound.
                                                              Impact: Improved wound care.

                                                              We substantiated an allegation that nurses did not
                                                              adequately care for a patient's wound. The
                                                              patient's treatment record showed that nursing
                                                              employees only provided wound care and dressing
                                                              changes an average of 1.2 times a day during the
                                                              period in question, while the physician's order was
                                                              for 3 times a day. A medical center surgeon, who
                                                              provided consultation on wound management, also
                                                              expressed concern about the frequency of the
                                                              patient's dressing changes. The attending
                                                              physician on this matter told us that the condition of
                                                              the wound supported a conclusion that the patient's
                                                              dressings were not changed as frequently as
                  VA Medical Center                           ordered. Nursing records also did not adequately
                   San Juan, PR




                                                        32

                                                                         Office of Healthcare Inspections

show that nurses took pressure ulcer-prevention              Issue: Patient discharges from inpatient
measures, made appetite and diet tolerance                      psychiatry.
assessments, or flushed his intravenous line.                Conclusion: Inappropriate patient
During the course of our inspection, we identified a            discharge.
communication problem between the facility's                 Impact: Improved patient safety and
medical team and the urology consultant service.                discharge planning practices.
Communication between these two groups needed
improvement to ensure that all clinicians were
working to provide coordinated care. We made six
recommendations to improve care and services.
The VISN Director and VAMC Director
concurred with the findings and provided
acceptable implementation plans. (Healthcare
Inspection – Patient Care Issues, Greater Los
Angeles Healthcare System Los Angeles,
California, 02-01221-01, 10/4/02)

Issue: Infection controls.
Conclusion: Opportunities exist to
   improve the environment of care.
                                                                      Franklin Delano Roosevelt Campus
Impact: Improved cleanliness and patient                              VA Hudson Valley Healthcare System
   safety.                                                                       Montrose, NY

The Secretary of Veterans Affairs asked us to                We reviewed the deaths of three patients following
review concerns he received from Senator                     their medical center discharges, and an alleged
Christopher Bond and Congressman Kenny                       denial of treatment to a fourth patient. We
Hulshof regarding complaints of substandard VA               substantiated that one patient’s discharge from
care. A complainant alleged that an inpatient was            inpatient psychiatric treatment was not appropriate.
found to have maggots in a foot wound and also               Also, we found that clinicians had not adequately
expressed concern about sanitary conditions at the           documented their clinical or administrative rationale
hospital. We concluded that the maggot incident              for denying one patient’s request for additional
was not reflective of inadequate infectious disease          inpatient post-traumatic stress disorder treatment.
controls. We substantiated the allegation that there         We made five recommendations regarding
were environment of care and quality control                 discharge planning, notification of family members,
issues in need of improvement, but managers acted            management of residential care homes, and
promptly to correct the issues. We made two                  documentation of medical records and denied
recommendations to correct environment of care               admission requests for care. The VISN and
concerns. The Acting VISN Director agreed with               Medical Center Directors agreed with the
the recommendations, with one clarification, and             recommendations and provided acceptable
provided acceptable implementation plans.                    implementation plans. (Patient Care Issues,
(Healthcare Inspection – Infection Control and               Department of Veterans Affairs Hudson Valley
Patient Care Issues, Harry S. Truman Memorial                Health Care System Franklin Delano Roosevelt
Veterans Hospital Columbia, Missouri,                        Campus, Montrose, New York, 02-02374-08,
02-02177-05, 10/10/02)                                       10/10/02)




                                                       33

Office of Healthcare Inspections

Issue: Post-operative care.                                     misconduct. However, employees did not carry
Conclusion: Clinician involvement in                            out certain assigned patient care responsibilities.
   patient care needed improvement.                             Managers took administrative actions by
Impact: Improved discharge planning                             suspending these employees. We made three
   processes.                                                   recommendations. The VISN Director concurred
                                                                with the recommendations and provided acceptable
We reviewed allegations from a complainant who                  implementation plans. (Healthcare Inspection –
questioned the appropriateness of a patient’s care              Patient Care and Employee Conduct Issues, VA
and the patient’s premature discharge to a                      New Jersey Healthcare System East Orange,
community nursing home. We concluded that the                   New Jersey, 01-01340-14, 11/13/02)
patient received inadequate post-operative care.
The patient was ill and chronically debilitated.
There should have been more immediate physician
involvement in his care than was the case when he
started to show signs of clinical deterioration soon
after his admission to the nursing home care unit.
We made four recommendations to better
document and communicate discharge-planning
processes. The VISN Director agreed with the
recommendations and provided acceptable
implementation plans. (Healthcare Inspection –
Discharge Planning and Other Patient Care
Issues at the VA Northern Indiana Healthcare                                   East Orange Campus
System, 01-02748-07, 10/25/02)                                            VA New Jersey Health Care System
                                                                                  East Orange, NJ
Issue: Unexpected patient deaths.
Conclusion: Patient care and monitoring                         Issue: Patient abuse.

   needed improvement.                                          Conclusion: Nurse managers needed to

Impact: Improved patient safety.                                   investigate allegations of patient
                                                                   abuse.
We conducted an inspection to determine the                     Impact: Improved patient safety and
validity of quality of care complaints regarding                   employee training.
unexpected deaths. An anonymous complainant
alleged that a patient died from overmedication.                We reviewed allegations concerning patient care
The complainant alleged a second patient died as                and management issues. We found that employees
the result of employee misconduct. We did not                   reported serious concerns about a certified nursing
substantiate the allegation that a patient died from            assistant; however, the nurse manager (NM)
overmedication, but we did determine that the care              discounted the reports and did not conduct
and monitoring of the patient could have been                   inquiries, as required by policy. In addition, the
improved. Employees did not check the patient’s                 NM falsely testified that she never received any
personal belongings for contraband, and nurses did              information of this kind about the certified nursing
not take or did not record the patient’s vital signs at         assistant. Had the NM acted to address
one prescribed interval. Nurses also did not                    employees’ concerns, the patient may not have
perform suicide prevention checks the day the                   been subjected to physical abuse. VA managers
patient died. We did not substantiate the allegation            conducted their own internal reviews, and acted to
that the second patient died because of employee                revise their patient abuse policy to require notifying




                                                          34

                                                                        Office of Healthcare Inspections

VA police in all cases of suspected patient abuse           isolated incidents or whether systemic weaknesses
and to require immediate family notification by             existed. Specifically, we asked for data concerning
nurse management. VA managers hired a night                 whether clinicians are visiting inpatients daily, and
shift supervisor and formed a team to address               timely ordering and distributing pharmacy orders.
employee morale issues. Although employees                  We asked that the VISN Director refer these
received additional training on the patient abuse           results to the OIG for further review. The VISN
policy and other related issues after the incident,         Director concurred with the findings and
many employees, including senior supervisors,               recommendations and provided acceptable
remained uncertain about the procedures related to          implementation plans. The Health Care System
the reporting of adverse incidents.                         Director established a monitor to track the
                                                            timeliness of provider assessments of patients on
We recommended the VISN Director and VA                     acute units. He also agreed to examine the
Healthcare Center Director take administrative              procedures for ordering medications. (Healthcare
action against the NM for not addressing repeated           Inspection – Medical and Surgical Care Issues
concerns expressed by employees. We also                    at the Department of Veterans Affairs Northern
required employees to receive additional training.          Indiana Health Care System Fort Wayne,
The VISN Director concurred with the findings               Indiana, 02-00265-35, 12/16/02)
and recommendations and provided acceptable
implementation plans. The NM in question was                Issue: Infection control.

detailed from her position to a non-supervisory             Conclusion: VA clinicians did not follow

assignment. Soon afterwards, the NM resigned                   policy related to follow up after
from VA and moved out of state. (Healthcare                    exposure to body fluids and accident
Inspection – Patient Treatment Issues, Orlando                 reporting.
VA Healthcare Center, Orlando, Florida,                     Impact: Improved employee safety.
02-01980-34, 12/16/02)
                                                            We reviewed allegations pertaining to access to
Issue: Patient treatment lapses.                            care, quality of care, nurse staffing, and employee
Conclusion: Physicians were not                             safety at a VA medical facility. With the exception
   providing timely treatment.                              of the need to strengthen certain safety controls,
Impact: Improved timeliness of patient                      we did not substantiate the allegations. Patients
   assessment and care.                                     were not denied access to care, and managers
                                                            took proper measures to ensure that mentally ill
We reviewed allegations that managers and                   veterans received appropriate treatment through
physicians did not ensure high quality medical and          other VA facilities or contractors. VISN
surgical care for certain patients. Our review              investigators thoroughly evaluated a surgeon’s
showed that clinicians had not assessed one patient         complication rates and found that the rates
for 3 consecutive days during the patient's                 remained within the national average. VISN
hospitalization for an acute care episode. We also          managers are now requiring all reported
substantiated a delay in ordering medications for           complications to be sent through the performance
one other patient. While, in our opinion, the two           improvement committee for oversight purposes,
patients did not suffer adverse effects from these          and the surgeon’s rates will be monitored. We did
treatment lapses, the standard of care was not              not find a correlation between adverse patient
met.                                                        events and staffing levels in the nursing home care
                                                            unit or the intensive care unit. However, we found
We recommended that the VISN Director instruct              that a VA supervisor and a contract medical officer
quality managers to determine whether these were            of the day did not follow prescribed policies related




                                                      35

Office of Healthcare Inspections

to follow up after an employee’s exposure to body            postponement of the third stage of the patient's
fluids and accident reporting. We made five                  surgery resulted in an inappropriate treatment
recommendations. The VISN Director concurred                 delay. We were unable to substantiate or refute
with the recommendations and the VA medical                  the allegation of poor nursing home care because
facility Director provided acceptable                        of the length of time that lapsed since the alleged
implementation plans. (Healthcare Inspection –               incident and lack of direct evidence. We found
Quality of Care Issues, Amarillo VA Health                   that the patient experienced a second allergic
Care System Amarillo, Texas, 02-02706-45,                    reaction to a prescribed medication because
1/10/03)                                                     employees had not appropriately flagged the
                                                             medical record to alert future providers. Local
                                                             policy did not clearly define which clinical team
                                                             member was responsible for flagging allergies in
                                                             the medical record. We made four
                                                             recommendations. The Acting Healthcare System
                                                             Director and the VISN Director concurred with
                                                             the findings and recommendations and provided
                                                             acceptable implementation plans. (Healthcare
                                                             Inspection – Medical Treatment Issues, VA
                                                             Greater Los Angeles Healthcare System Los
                                                             Angeles, California, 02-00003-56, 2/2/03)

                                                             Issue: Hepatitis C treatment.
                                                             Conclusion: Clinicians’ treatment met
           Amarillo VA Health Care System                       standards. The liver clinic needed
                   Amarillo, Texas
                                                                increased resources.
                                                             Impact: Improved timeliness of services
Issue: Nursing care and documentation.                          and access to care.
Conclusion: Nursing employees had not
   properly monitored and documented IV
                                                             We received a request from the Secretary of
   line access.
                                                             Veterans Affairs to investigate an allegation that a
Impact: Improved care.
                                                             veteran with hepatitis C received substandard
                                                             care. Allegations also included tampering with his
We conducted an inspection to determine whether              medical record, not scheduling timely appointments
a patient received inadequate medical care. The              in the liver clinic, and not assigning a primary care
complainant, who visited the patient regularly,              provider to the patient.
alleged that employees provided the patient
insufficient intravenous (IV) line care, inadequate           We did not substantiate the allegation of
nutrition support, inadequate nursing care in the            substandard care. The patient apparently
nursing home care unit, and delayed treatment by             developed toxic hepatitis as a result of a change in
repeatedly postponing his scheduled surgery. We              the herbal over-the-counter medications he was
substantiated the allegation that employees had not          taking. This toxic condition was superimposed
adequately documented that they monitored the                upon his chronic hepatitis C infection. The medical
patient’s IV line, as required by policy. An abscess         care the patient received for his hepatitis C
at the IV site strongly suggested that nursing               infection met the standard of care. We found no
employees did not follow IV procedures. We did               evidence to support the allegation that the patient’s
not substantiate the allegation that the patient             medical record had been tampered with in an
received insufficient nutrition care or that the
                                                             effort to cover up poor care.



                                                       36

                                                                         Office of Healthcare Inspections

We concluded that it was questionable whether the            oxygen piping by the independent verifier. The
liver clinic had sufficient staffing resources and           piping was certified as safe for patient use. Based
that the patient was not assigned a primary care             on the evidence, we did not substantiate the
provider. We made two recommendations to                     allegation and made no recommendations.
improve care and services. The VISN Director                 (Healthcare Inspection – Medical Oxygen
and the VAMC Director concurred with the                     System at the VA Medical and Regional Office
findings and provided acceptable implementation              Center Wilmington, Delaware, 03-00052-74,
plans. (Healthcare Inspection – Care Provided                3/18/03)
to Patient with Hepatitis C, Washington, DC, VA
Medical Center, 02-02514-13, 11/4/02)                        Healthcare Inspections Consultations

                                                             During the reporting period, OHI inspectors
                                                             provided consultation to the Office of
                                                             Investigations staff on 15 criminal investigations;
                                                             3 cases required intensive medical record reviews
                                                             and interviews with witnesses.




                 VA Medical Center
                 Washington, DC


Issue: Medical oxygen system.
Conclusion: The oxygen piping was safe
   for patient use.
Impact: Substantiated patient safety.

We initiated an inspection based on allegations that
the VA Medical and Regional Office Center had a
centrally piped medical oxygen system that was
contaminated. We met with VHA facilities
management officials to obtain the services of an
independently selected medical gas verifier with
recognized credentials. The individual selected
was certified by the Medical Gas Health
Professional Organization and was a member of
the National Fire Protection Association Technical
Committee on Industrial and Medical Gases. We
witnessed the testing of both the old and new




                                                       37

Office of Healthcare Inspections




                                   38

OFFICE OF MANAGEMENT AND
ADMINISTRATION

Mission Statement                                            maintains the Master Case Index (MCI) system,
                                                             the OIG’s primary information system for case
    Promote OIG organizational effectiveness                 management and decision making. The Data
    and efficiency by providing reliable and                 Analysis Section, located in Austin, TX, provides
    timely management and administrative                     data processing support, such as computer
    support, and providing products and services             matching and data extraction from VA databases.
    that promote the overall mission and goals of
    the OIG. Strive to ensure that all allegations           IV. Financial and Administrative Support – The
    communicated to the OIG are effectively                  Division is responsible for OIG financial
    monitored and resolved in a timely, efficient,           operations, including budget formulation and
    and impartial manner.                                    execution, and all other OIG administrative
                                                             support services.
The Office of Management and Administration is a
diverse organization responsible for a wide range            V. Human Resources Management – The Division
of administrative and operational support                    provides the full range of personnel management
functions. The Office includes five divisions:               services, including classification, staffing,
                                                             employee relations, training, and incentive awards
I. Hotline – The Division determines action to be            program.
taken on allegations received by the OIG Hotline.
The Division receives thousands of contacts                  Resources
annually from veterans, VA employees, and
Congress. The work includes controlling and                  The Office of Management and Administration has
referring many cases to the OIG Offices of                   57 FTE allocated to the following areas.
Investigation, Audit, and Healthcare Inspections, or
to impartial VA components for review.

II. Operational Support – The Division does
                                                                                             Operational Support
follow up on implementation of OIG report
                                                                                                    17%
recommendations; Freedom of Information Act/
                                                                                                 Financial &
Privacy Act releases; strategic, operational, and                  IT &                         Administration
performance planning; and IG reporting                        Data Analysis                         15%
                                                                  40%
requirements and policy development.
                                                                                             Human Resources
                                                                                                  13%
III. Information Technology (IT) and Data
Analysis – The Division manages nationwide IT                                      Hotline
support, systems development and integration;                                       15%

represents the OIG on numerous intra- and inter-
agency IT organizations; and does strategic IT
planning for all OIG requirements. The Division




                                                       39

Office of Management and Administration

I. HOTLINE DIVISION                                          Overall Performance
                                                             During the reporting period, the Hotline received
Mission Statement                                            7,534 contacts, which resulted in opening 605
                                                             cases. The OIG reviewed 155 (approximately 25
    Ensure that allegations of criminal activity,            percent) of these and the remaining 450 cases were
    waste, abuse, and mismanagement are                      referred to VA program offices for review.
    responded to in an efficient and effective
    manner.                                                  Output
                                                             During the reporting period, Hotline staff closed
The Division operates a toll-free telephone service,         657 cases, of which 195 (30 percent) contained
Monday through Friday, from 8:30 AM to 4 PM                  substantiated allegations. The Hotline staff wrote
Eastern Time. Employees, veterans, the general               157 letters responding to inquiries received from
public, Congress, U.S. General Accounting Office,            members of the Senate and House of
and other Federal agencies report issues of                  Representatives.
criminal activity, waste, and abuse through calls,
letters, faxes, and e-mail messages. Hotline                 Outcome
carefully considers all complaints and allegations;          VA managers imposed 45 administrative sanctions
OIG or other Departmental staff address mission-             against employees and took 68 corrective actions
related issues.                                              to improve operations and activities as the result of
                                                             these reviews. The monetary impact resulting from
                                                             these cases totaled almost $1.2 million.
Resources

The Hotline Division has eight FTE. The
following chart shows the estimated percentage of            “Just a note to express my appreciation to the VA
resources devoted to various program areas.                  OIG staff, and for the hearing aids I recently
                                                             received.” Citing that he was an IG at an Army
                                                             headquarters during the latter stages of his military
                                                             career, the veteran stated he was “happy to see the
                                                             ‘IG channels’ are still functional.”
                           A&MM      Inform ation
                            4%       Technology
                                                                                   A Retired U.S. Army Officer
                                          6%

    VHA                              NCA
    51%                              1%                      Hotline Special Accomplishment
                                     Management
                                                             On March 5, 2003, the Secretary of Veterans
                                        17%
                                                             Affairs issued VA Directive 0701, titled “Office of
                                                             Inspector General Hotline Complaint Referrals,”
                            VBA                              which provides updated instructions on how VA
                            21%                              officials must respond to OIG Hotline referrals, as
                                                             well as current information on how employees may
                                                             contact the Hotline.




                                                       40

                                                              Office of Management and Administration

Veterans Health                                              manager on the medical unit scheduled re-training
                                                             on skin care protocol for nursing unit personnel.
Administration
                                                             z A VHA review found that a veteran’s
Quality of Patient Care                                      counseling session was not conducted in a
                                                             professional manner. The session was marred by
The responses to Hotline inquiries by VA                     frequent interruptions and the physician paid more
management officials indicated that 43                       attention to the computer rather than to the veteran.
allegations regarding deficiencies in the quality of         Management counseled the physician and is
patient care provided by individual facilities had           instituting performance measures to ensure quality
merit and required corrective action. Examples of            service is provided to all veterans.
the issues follow:
                                                             z A VHA review determined that a contract
z A VHA review found that radiologists failed to             facility failed to provide a veteran with timely
properly read a patient’s x-rays and missed a                initial and follow up care. The parent facility is
diagnosis of cancer. This was due to an increase in          aware of similar complaints and as a consequence
the number of radiological tests requested, which            they are in the process of opening a new clinic.
resulted in radiologists having to read 20 percent
more tests. As a result, two full-time radiologists          z A VHA review found a nursing aide required
will join the staff in the summer of 2003. Also, a           additional training and supervision in order to
computerized program has been developed to track             provide care to elderly patients. The employee was
the work habits and productivity of the                      found to require supervision and constant
radiologists.                                                reminders of proper patient care techniques and
                                                             appropriate bedside manner. Management will
z    A VHA review substantiated a care provider              provide additional in-service training and
failed to follow established hand-washing                    supervision of the employee in an effort to improve
techniques in the performance of his patient                 her skills.
examinations. The provider has been counseled on
proper infection control standards. Management               Eligibility Controls
has implemented mandatory hand-washing and
isolation precaution training for health care                The responses to Hotline inquiries by
workers, along with proper hand-washing                      management officials indicate that 7 allegations
techniques as a component of patient education.              involving eligibility improprieties or problems
                                                             with services at individual VA facilities were found
z   A VAMC review determined that a physician’s              to have merit and required corrective action.
order for a 2-month follow up appointment on a               Examples of the issues follow.
diabetic heart patient was delayed for 7 months.
Management corrected the error. The patient                  z    A VHA review substantiated the allegation that
advocate provided her business card to the                   two veterans received medical care for which they
complainant and his wife for any assistance they             were ineligible; the value of this care was
may need in the future.                                      approximately $450,000. Management contacted
                                                             the two veterans and informed them that they
z A VHA review of a veteran’s medical file                   would need to transition to some other type of
indicated inconsistent documentation relating to the         medical coverage, since the medical center will no
protocol and care of a pressure ulcer. The nurse             longer provide medical care to them. The facility




                                                       41

Office of Management and Administration

will review the eligibility of all current veterans         her vehicle when using her designated parking
using the medical care system.                              space on VA premises, and cancelled the contract.
                                                            The VISN will issue a directive clarifying
z A VHA review determined that VA erred in                  regulations concerning Federal employees
denying payment of medical bills incurred by a              conducting personal business on Government
veteran when he sought non-VA emergency care for            property.
dangerously high blood pressure. The VAMC
telephone triage unit had instructed the veteran to         z    A VHA review substantiated the allegation that
go directly to the emergency room nearest his               an assistant plant manager at a VAMC laundry
home. VAMC management has assumed                           facility illegally loaned money to his employees
responsibility for medical bills of $18,401.                charging them 100 percent interest. He then
                                                            threatened his employees with bodily harm if the
Employee Misconduct                                         loan was not repaid. He also cashed their
                                                            paychecks, withholding portions of their funds. As
The responses to Hotline inquiries by                       a result, management initiated action to remove the
management officials indicated that 15                      plant manager. VA police referred the matter to the
allegations of employee misconduct at individual            local Assistant U.S. Attorney for prosecutorial
VA facilities had merit and required corrective             consideration.
action. Examples of the issues follow.
                                                            z A VHA review determined that an employee
z    A review by the Deputy Assistant Secretary             failed to cooperate with a police officer in an
(DAS) for Security and Law Enforcement                      investigation. The review also found the employee
confirmed an incident in which a VAMC police                improperly purchased non-approved hospital items
officer drew and displayed his service weapon               in excessive amounts and failed to return
during the course of a casual conversation. The             Government property improperly removed from
review determined the VAMC was moving to issue              hospital grounds. Management proposed a 30-day
a disciplinary removal against the officer when he          suspension.
sought and was given a transfer to another VA
facility. The DAS expressed concerns over the               Time and Attendance
failure of the receiving VAMC’s police chief to
properly notify his Director of this matter. The            The responses to Hotline inquiries by
DAS informed the Director of the results of the             management officials indicate that 8 allegations
investigation. Additionally, the DAS withheld a             of time and attendance abuse at individual VA
firearms authorization for the subject officer              facilities had merit and required corrective action.
pending the outcome of a psychological                      Examples of the issues follow.
assessment.
                                                            z A VHA review substantiated an allegation of
z    A VISN review determined that a VA canteen             time and attendance abuse. A recreation therapist/
chief inappropriately granted a concession contract         timekeeper failed to record the time she and
to a VA employee to operate a personal business             another therapist worked. The supervisor
out of the canteen. Although the review did not             permitted this flexible scheduling without
determine the employee coerced her subordinate              appropriate documentation. Management will
employees to purchase her product or used official          initiate appropriate disciplinary action against the
duty hours to sell the product, management                  timekeeper and provide written counseling and
counseled the employee, ordered that the employee           training to all involved in the abuse.
remove the magnetic company identification from




                                                      42

                                                               Office of Management and Administration

z A VHA review found that an allegation of time               engaged in an altercation that led to the paraplegic
and attendance irregularities was substantiated. As           repeatedly pushing his gurney into the
a result, corrective action was taken to have the             quadriplegic’s bed and threatening him. The nurse
employee adhere to her established tour of duty.              manager counseled the paraplegic and moved him
Also, the employee’s supervisor is now maintaining            to another room to preclude further encounters.
a permanent record of the dates and times that the
employee leaves the department on union business.             z A state veterans home social service
                                                              department review substantiated the allegation of
Fiscal Controls                                               patient abuse at a state veterans home. The review
                                                              found that a patient was attacked on several
The responses to Hotline inquiries by                         occasions by his roommate, who was diagnosed
management officials indicate that 5 allegations              with schizophrenia and dementia. Management
of deficient or improper fiscal controls at                   transferred the roommate to a locked unit.
individual VA facilities had merit and required
corrective action. An example follows:                        Government Equipment and Supplies

z A VHA review confirmed that a medical center                The responses to Hotline inquiries by
failed to process fee-basis payments in a timely              management officials indicate that 8 allegations
manner. Some delinquent payments were over 90                 involving misuse of Government equipment and
days old. Management directed staff to pay all                supplies at individual VA facilities had merit and
delinquent claims and to refocus their efforts to             required corrective action. An example follows:
prevent a recurrence of delays in payments.
Additionally, the medical center contacted the                z A VHA review substantiated an employee
provider to restore a good working relationship.              misused his VA computer and telephone access to
                                                              repeatedly contact various travel sites in support of
Patient Safety                                                outside employment as a travel agent.
                                                              Management proposed removal of the employee.
The responses to Hotline inquiries by
management officials indicate that 9 allegations              Personnel Issues
of patient safety deficiencies at individual VA
facilities and at a state veterans home had merit             The responses to Hotline inquiries by
and required corrective action. Examples of the               management officials indicate that 8 allegations
issues follow:                                                involving improprieties in the personnel practices
                                                              at individual VA facilities had merit and required
z   A VAMC review determined that two mental                  corrective action. Examples of the issues follow:
health professionals used poor judgment when they
permitted a patient, who had already admitted to              z A VAMC review determined a vacancy
ingesting a large quantity of narcotic medication, to         announcement posted on a VA website contained
return to the domiciliary unescorted. While she               factual errors including authorization of relocation
was unsupervised, the patient obtained and                    expenses and an incorrect locality pay rate. The
ingested more drugs and had to be taken to a                  review noted that the successful candidate was
community hospital for further treatment.                     advised of the changes at the time he was offered
Management is in process of disciplining the social           the job, which he then accepted. Management
worker and the psychologist.                                  reminded personnel specialists to ensure all
                                                              vacancy announcements reflect accurate
z A VHA review substantiated the allegation that              information.
a quadriplegic patient and a paraplegic patient



                                                        43

Office of Management and Administration

z A VHA review determined that an employee                    file. Management issued a letter of reprimand to
and her supervisor were engaged in a non-                     the senior official.
professional relationship. The supervisor allowed
the employee to frequently report late and leave              z A VAMC review verified a VA employee
work early, without charge to annual leave. A                 accessed a veteran’s medical records 38 times in a
second supervisor hired his wife’s nephew to fill a           4-year period. During this period of time, the
temporary position that was later converted to                employee and the veteran were involved in a
permanent. Due to the number of relatives hired at            personal relationship and the employee had no
the medical center, management counseled the                  official reason to access the records. Management
supervisors involved and took appropriate                     disciplined the employee and will continue to
disciplinary action. Supervisors involved in the              monitor access to this veteran’s records.
selection and hiring process at the facility have
also received appropriate training.                           Facilities and Services

Ethical Improprieties                                         The responses to Hotline inquiries by VA
                                                              management officials indicated that 28
The responses to Hotline inquiries by                         allegations regarding deficiencies with facilities
management officials indicate that 3 allegations              or the services provided by individual VA facilities
involving violations of ethical conduct standards             had merit and required corrective action.
at individual VA facilities had merit and required            Examples of the issues follow.
corrective action. An example of the issue
follows.                                                      z   A VHA review concluded that a clinic’s lack of
                                                              a computer and terminal linkage to the parent
z A VHA review found an employee engaged in                   medical facility hindered the physician’s ability to
an improper personal and financial relationship               provide continuity of care and timely forwarding of
with a patient. The review proposed termination;              prescriptions to the pharmacy. As a result, the
however, final action is being held in abeyance               clinic is now equipped with a computer and
pending consultations between human resources                 terminal to enable immediate access to the parent
and the union. Additionally, all personnel will               facility during appointments.
receive refresher ethics training specific to
relationships and financial transactions between              z A VHA review substantiated allegations of
staff and patients.                                           system problems that resulted in a patient’s
                                                              untimely receipt of heart medication refills. The
Privacy Issues                                                review also found that a clinical coordinator failed
                                                              to respond to the patient’s concerns thus causing
The responses to Hotline inquiries by                         the prescription to expire. Management provided
management officials indicate that 8 allegations              the patient an immediate 14-day supply of the
involving Privacy Act violations at individual VA             medication through a local pharmacy. The clinical
facilities had merit and required corrective action.          coordinator was counseled on her failure to assist
Examples of the issues follow.                                the patient with his concerns.

z    A VHA review substantiated a senior official             z   A VHA review confirmed problems with a
released sensitive information regarding a veteran            medical center’s telephone and voicemail system,
to a third party without the veteran’s authorization.         as well as lapses in courtesy. Management is
A letter of reprimand has been issued by                      reviewing the telephone system to determine a more
management and will be placed in the employee’s               appropriate way to meet the needs of its customers.




                                                        44

                                                              Office of Management and Administration

Additionally, management incorporated comments               z A VBA review revealed that a veteran’s son
from the veteran’s family into the mandatory                 and fiduciary misappropriated $8,470 of his VA
employee customer service training program.                  benefits. Management worked out a payment plan
                                                             with the fiduciary at a rate of $240 per month.
z   A VHA review concluded that an eligibility
clerk threatened a veteran with denial of medical            Facilities and Services
care if he did not fill out new forms and enrollment
data after he transferred between medical centers.           The responses to Hotline inquiries by
Management informed the eligibility clerk that the           management officials indicate that 22 allegations
veteran’s computer file could have been requested            regarding deficiencies with facilities or the
from the losing medical center and new enrollment            services provided by individual VA facilities had
forms were not necessary. Arrangements were                  merit and required corrective action. Examples of
made with the veteran for continued medical care.            the issues follow.

Veterans Benefits                                            z    A VBA review substantiated the allegation that
                                                             a series of administrative errors and assumptions
Administration                                               on the part of VA employees erroneously held a
                                                             widow of a VA beneficiary responsible for a VA-
Receipt of VA Benefits                                       backed mortgage loan. Additionally, the review
                                                             found an employee might have been discourteous
The responses to Hotline inquiries by                        to a family member attempting to resolve the
management officials indicate that 22 allegations            situation. Management corrected the VA records
involving improprieties in the receipt of VA                 and counseled the employees.
benefits had merit and required corrective action.
Examples of the issues follow.                               z    A VBA review confirmed that a veteran’s
                                                             identification data contained a Social Security
z A VBA review concluded a veteran’s benefits                number and date of birth that matched the profile
should be reduced from 60 to 40 percent service              of a deceased veteran; however, other data was
connection as a result of his reexamination. The             correct. VBA initiated an inquiry with the Social
veteran’s individual unemployability benefits were           Security Administration that supported the
terminated, avoiding erroneous payments estimated            veteran’s claim of erroneous data entry by a prior
at more than $625,000.                                       VARO. The veteran’s current VARO made the
                                                             appropriate correction and established a claim for
z A VBA review substantiated the allegation that             educational benefits.
an incarcerated veteran continued to receive his VA
benefits. The VARO notified the veteran that his             Fiscal Controls
benefits will be suspended, creating an
overpayment of $12,043.                                      z    A VBA review substantiated that an
                                                             educational institution had summarily cancelled
z A VBA review substantiated the allegation that             classes prior to filing for bankruptcy protection 4
a veteran collecting an income-based pension from            weeks later. At the time, three veterans were
VA failed to report his marriage or his wife’s               enrolled through a VARO vocational rehabilitation
substantial income. As a result, VBA created an              program, one whose tuition had already been paid.
overpayment of $10,285.                                      All three veterans have been placed in new
                                                             programs, and the regional counsel will file a claim
                                                             through the court to recover the tuition.




                                                       45

Office of Management and Administration

National Cemetery
Administration                                                                    Leg. Reviews
                                                                                       8%
                                                                        Policy
Receipt of Benefits                                                                                Planning &
                                                                         11%
                                                                                                    Reports
z An administrative review found that funeral                                                         13%
home sales consultant might have contacted a
veteran, asking him to send $35 and a copy of his
military discharge certificate to preregister for                                                Follow Up
interment at a VA cemetery projected to open in                   FOIA/PA                          22%
Palm Beach, Florida, in 2007. NCA prepared an                      46%
outreach campaign, targeted to news outlets and
veterans service organizations in Florida. The
campaign told how to arrange for national
cemetery burial, and alerted veterans to be cautious
of private individuals who contact them about                Overall Performance
veterans burial benefits, especially if money is
requested for a service. This case resulted in a VA
                                                             Follow Up on OIG Reports
Office of Public Affairs news release, with input
from NCA and OIG, to local Florida newspapers
                                                             Operational Support is responsible for obtaining
and media.
                                                             implementation actions on previously issued audits,
                                                             inspections, and reviews with over $1 billion of
                                                             actual or potential monetary benefits as of
II. OPERATIONAL                                              March 31, 2003.
SUPPORT DIVISION                                             The Division is also responsible for maintaining
                                                             the centralized follow up system that provides for
                                                             oversight, monitoring, and tracking of all OIG
Mission Statement                                            recommendations through both resolution and
                                                             implementation. Resolution and implementation
    Promote OIG organizational effectiveness                 actions are monitored to ensure that disagreements
    and efficiency by providing reliable and                 between OIG and VA management are resolved
    timely follow up reporting and tracking on               promptly and that corrective actions are
    OIG recommendations; responding to                       implemented, as agreed by VA management
    Freedom of Information Act (FOIA)/Privacy                officials. VA’s Deputy Secretary, as the
    Act (PA) requests; conducting policy review              Department’s audit resolution official, resolves any
    and development; strategic, operational, and             disagreements about recommendations.
    performance planning; and overseeing
    Inspector General reporting requirements.                After obtaining information that showed
                                                             management officials had fully implemented
Resources                                                    corrective actions, Operational Support closed 72
                                                             reports and 437 recommendations with a monetary
                                                             benefit of $18 million during this period. As of
This Division has nine FTE assigned with the
                                                             March 31, 2003, VA had 65 open OIG reports with
following allocation.
                                                             221 unimplemented recommendations.



                                                       46

                                                              Office of Management and Administration

Freedom of Information Act, Privacy Act,
and Other Disclosure Activities
                                                             III. INFORMATION
                                                             TECHNOLOGY AND DATA
Operational Support processes all OIG FOIA and
PA requests from Congress, veterans, veterans                ANALYSIS DIVISION
service organizations, VA employees, news media,
law firms, contractors, complainants, the general            Mission Statement
public, and subjects of investigations. In addition,
we processed official requests for information and
                                                                 Promote OIG organizational effectiveness
documents from other Federal Departments and
                                                                 and efficiency by ensuring the accessibility,
agencies, such as the Office of Special Counsel,
                                                                 usability, and security of OIG information
the Department of Justice, and the FBI. These
                                                                 assets; developing, maintaining, and
requests require the review and possible redacting
                                                                 enhancing the enterprise database
of OIG hotline, healthcare inspection, criminal and
                                                                 application; facilitating reliable, secure,
administrative investigation, contract audit, and
                                                                 responsive, and cost-effective access to this
internal audit reports and files. Operational
                                                                 database, VA databases, and electronic mail
Support also processed OIG reports and
                                                                 by all authorized OIG employees; providing
documents to assist VA management in establishing
                                                                 Internet document management and control;
evidence files used to support administrative or
                                                                 and providing statistical consultation and
disciplinary actions against VA employees.
                                                                 support to all OIG components. Provide
                                                                 automated data processing technical support
During this reporting period, we processed 215
                                                                 to all elements of the OIG and other Federal
requests under the FOIA and PA and released 280
                                                                 Government agencies needing information
audit, investigative, and other OIG reports.
                                                                 from VA files.
Information was totally denied in 24 requests and
partially withheld in 120 requests, because release
                                                             The Information Technology and Data Analysis
would constitute an unwarranted invasion of
                                                             Division provides information technology (IT) and
personal privacy, interfere with enforcement
                                                             statistical support services to all components of the
proceedings, disclose the identity of confidential
                                                             OIG. It has responsibility for the continued
sources, disclose internal Departmental matters, or
                                                             development and operation of the management
was specifically exempt from disclosure by statute.
                                                             information system known as the Master Case
During this period, all FOIA cases received a
                                                             Index (MCI), as well as the OIG’s Internet
written response within 20 workdays, as required.
                                                             resources. The Division interfaces with VA IT
There are no cases pending over 6 months.
                                                             units nationwide to establish and support local and
                                                             wide area networks, guarantee uninterrupted access
Review and Impact of Legislation and
                                                             to electronic mail, service personal computers,
Regulations
                                                             detect and defeat computer threats, and provide
                                                             support in protecting all electronic
Operational Support coordinated concurrences on
                                                             communications. The OIG’s Chief Information
39 legislative, 48 regulatory, and 79 administrative
                                                             Officer and staff represent the OIG on numerous
proposals from the Congress, OMB, and VA. The
                                                             intra- and inter-agency IT organizations and are
OIG commented and made recommendations
                                                             responsible for strategic IT planning for all OIG
concerning the impact of the legislation and
                                                             requirements. The Data Analysis Section in
regulations on economy and efficiency in the
                                                             Austin, TX provides data gathering and analysis
administration of programs and operations or the
                                                             support to employees of the OIG, as well as VA and
prevention and detection of fraud and abuse.




                                                       47

Office of Management and Administration

other Federal agencies, requesting information                 tools that will allow users to store online all source
contained in VA automated systems. Finally, a                  material from complainants and all documents
member of the staff serves as the OIG statistician.            referred to VA management for resolution.

Resources                                                      Internet and Electronic Freedom of
                                                               Information Act
The Division has 22 FTE allocated in Washington,
Austin, and Chicago. These FTE are devoted to                  The Division is responsible for processing and
the following areas.                                           controlling electronic publication of OIG reports,
                                                               including maintaining the OIG websites and
                                                               posting OIG reports on the Internet. Data files on
                                                               the OIG website were accessed over 964,000 times
                       Webmaster/
                                                               by more than 159,000 visitors. The most popular
                        Security
                          5%
                                                               reports were downloaded over 84,000 times,
  Mainframe                    CIO                             providing both timely access to OIG customers and
                                        Statistician
  Computer                      5%                             cost avoidance in the reduced number of reports
                                            5%
    Spec.                                                      printed and mailed. OIG vacancy announcements
    61%                           Sup. Comp.                   accounted for an additional 4,400 downloads.
                                    Spec.
                                      5%
                                                               We posted the frequently-requested Investigations
                                Programmers                    report “Summary of the Philippines Benefit
                   PC Comp.         14%                        Review” in our electronic reading room in
                     Spec.                                     compliance with the Electronic Freedom of
                      5%                                       Information Act. We posted 16 other CAP and
                                                               audit reports, Office of Investigations press
                                                               releases, and other OIG publications, including this
                                                               semiannual report to Congress, on the OIG
Overall Performance
                                                               website.
Master Case Index (MCI)
                                                               Information Management, Security, and
                                                               Coordination
During this reporting period, we provided the OIG
field personnel with more than 50 enhancements of
                                                               We participated in the development of
the MCI, the OIG’s enterprise database. Most
                                                               Departmental policy and programs to improve VA
notably, the Division implemented MCI modules to
                                                               information security, IT accessibility, and Internet
track the fugitive felon match, as well as
                                                               resources and utilization. We provided review and
allocations in travel, training, and supplies. It also
                                                               feedback on problems with VA draft policy
implemented a significantly more robust assigned
                                                               including media sanitation policy; information
weapons tracking system for the Office of
                                                               security officer professionalization and
Investigations.
                                                               certification initiatives; privacy program; personnel
                                                               security; classified information handling; and the
We successfully migrated a portion of the
                                                               proposed cyber security reviews, inspections, and
functionality and data in MCI from the current
                                                               assessments program.
client-server environment to a “web-enabled”
Oracle 9i production database. We initiated
testing an application for Hotline using Oracle 9i




                                                         48

                                                              Office of Management and Administration

Statistical Support                                          Biohazard Review

The OIG statistician is part of the technical                The mailing of anthrax by suspected terrorists
support team under the direction of the OIG’s                prompted a national review of biological, chemical,
Chief Information Officer and provides assistance            and radioactive agents purchased by Government
in planning, designing, and sampling for relevant            laboratories. The DAS assisted in this review by
OIG projects. In addition, the statistician provides         focusing on more than 60,000 transactions related
support in the implementation of appropriate                 to purchases of these substances at 28 VA
methods to ensure that data collection, preparation,         facilities. Many of these agents and organisms
analysis, and reporting are accurate and valid.              were purchased under a variety of clinical and
                                                             generic names that varied from vendor to vendor.
For the reporting period, the OIG statistician               The DAS found several additional vendors
provided statistical consultation and support on six         previously unidentified and identified 30 different
research design and/or sampling plans for proposed           types of these agents purchased from more than 12
audit projects and OHI proactive program                     primary commercial suppliers.
evaluations, statistical support for all CAP
reviews, and data concerning purchase card use at            Fugitive Felon Matches
each facility.
                                                             In compliance with recently signed legislation
Information Technology Training Initiative                   authorizing a computer match of VA records to
                                                             state and Federal files, the DAS matched more
We contracted with four vendors to provide                   than 700,000 felony warrant files from the
instructor-led training in a variety of Microsoft            National Crime Information Center, the California
applications in the classroom in our Washington,             Department of Justice, and the U.S. Marshals
DC, headquarters office and one vendor with                  Service to more than 16 million records contained
training facilities in each city in which the OIG is         in VA benefit system files. We identified more than
located to provide training for our field employees.         10,000 matches.
To date, 144 employees have received 445 days of
instructor-led training in Washington, DC, while 98          Data Mining to Detect Potential Fraud in
field employees have received 238 days of training           VA Computer Systems
locally.
                                                             The DAS took a proactive approach to finding and
DATA ANALYSIS SECTION
                                       reporting fraud by developing computer profiles
                                                             that reflect the procedures used to defraud the VA.
                                                             As a result of these data mining efforts, we referred
The Data Analysis Section (DAS) develops                     24 cases of potential fraud to OIG investigators for
proactive computer profiles that search VA                   further review. The cases included: suspected
computer data for patterns of inconsistent or                deceased payees still receiving VA benefit
irregular records with a high potential for fraud            payments, questionable payments to suspicious
and refers these leads to OIG auditors and                   addresses, payments to incarcerated veterans, and
investigators for further review. The DAS                    educational payments to potentially bogus veterans
provides technical assessments and support to all            and schools.
elements of the OIG and other governmental
agencies needing information from VA computer
files. Significant efforts include the following.




                                                       49

Office of Management and Administration

VA Drug Treatment Program Reporting                        Assistance to Other Agencies

Each year VA uses past workload, such as that              The DAS provided assistance to six Federal
published by the VA Program Evaluation and                 agencies for information contained in VA computer
Resource Center, to measure the success of VA              files. Agencies included the Department of
drug treatment programs in budgetary calculations.         Defense, Department of Energy, Department of
To support the attestation to the correctness of           Justice, U. S. Postal Service, U.S. Marshals
these reports by OIG auditors, the DAS conducted           Service, and FBI.
an extensive analysis on a series of 34 computer
programs to verify data reported. This review              Other Workload
indicated that VHA’s Office of National Drug
Counseling Programs is likely underreporting their         During the reporting period, the DAS completed
workload.                                                  105 ad hoc requests for data requested by all other
                                                           OIG operational elements. Considerable effort was
VA Workers Compensation Program Costs                      also expended by DAS in support of an on-site
                                                           review of physicians’ attendance and associated
The DAS assisted OIG auditors in their review of           intern oversight, a benefits payments integrity
workers’ compensation claims and related costs to          audit, and potential kickbacks to a physician from
determine if problems identified in a 1998 audit           recipients of large retroactive compensation
were corrected. The DAS received a file of over            payments.
7,000 active claims from the U.S. Department of
Labor. From this file, the DAS identified 84
persons receiving VA compensation and pension
benefits in addition to workers’ compensation
                                                           IV. FINANCIAL AND
benefits, and over 2,500 claimants who were never          ADMINISTRATIVE
employed by VA or may have died since the last
audit review.                                              SUPPORT DIVISION
Combined Assessment Program Reviews
                                                           Mission Statement
The DAS provided technical support and data to
20 CAP heath care reviews focusing on the quality,             Promote OIG organizational effectiveness
efficiency, and effectiveness of medical services              and efficiency by providing reliable and
provided to veterans. The DAS also provided                    timely financial and administrative support
support to six CAP reviews on VA benefits, which               services.
focused on the delivery of monetary benefits to
veterans and their dependents.                             The Division provides support services for the
                                                           entire OIG. Services include budget formulation,
Preaward and Postaward Contract                            presentation, and execution; travel processing;
Reviews                                                    procurement; space and facilities management; and
                                                           general administrative support.
The DAS provided technical support and data to
six preaward and postaward contract reviews                Resources
conducted by the OIG to identify better prices to
VA and disclose overcharges by private sector              Eight staff currently spend time across three
contractors.                                               functional areas in the following proportions.




                                                     50

                                                             Office of Management and Administration

                                                            V. HUMAN RESOURCES
                                       Budget               MANAGEMENT DIVISION
                                        19%
     Admin.
    Operations
      62%                                                   Mission Statement
                                        Travel
                                         19%                    Promote OIG organizational effectiveness
                                                                and efficiency by providing reliable and
                                                                timely human resources management and
                                                                related support services.
Overall Performance
                                                            The Division provides human resources
                                                            management services for the entire OIG. These
Budget
                                                            services include internal and external staffing,
                                                            classification, pay administration, employee
The staff assisted in the preparation of the FY
                                                            relations, benefits, performance and awards, and
2004 budget submission and materials for
                                                            management advisory assistance. It also serves as
associated hearings with VA, OMB, and the
                                                            liaison to the VA Central Offices of Human
Congress. During the year to date, we prepared
                                                            Resources and Payroll, as those offices process our
eight budget operating plans to support the
                                                            actions into the VA integrated payroll and
continuing resolutions enacted before the final
                                                            personnel system.
appropriations legislation for FY 2003.

Travel                                                      Resources

By the nature of our work, OIG personnel travel             Seven FTE, committed to human resources
almost continuously. As a result, we processed              management and support, currently expend time
1,218 travel, 47 permanent change of station                across the following functional areas.
vouchers, and 30 amendments to existing
authorities.

Administrative Operations                                                                  Special Projects &
                                                                                           Advisory Service
The administrative staff works closely with VA                                                   15%

Central Office administrative offices and building             Staffing &                    Employee Relations
management to coordinate various administrative              Classification                      & Benefits
functions, office renovation plans, telephone                    65%                                10%
installations, and the procurement of furniture and
                                                                                           Perf ormance
equipment.
                                                                                            & Aw ards
                                                                                                10%
In addition, we processed 143 procurement actions
and each month reviewed and approved the 24
statements received from the OIG’s cardholders
under the Government’s purchase card program.




                                                      51

Office of Management and Administration

Overall Performance
Human Resources Management

During this period, the staff brought 13 new
employees on board; there were 26 losses. During
much of the reporting period, we were under a
continuing resolution, and many recruitment
actions were on hold. In addition, the staff
processed 93 personnel actions and 31 awards and
provided support to accomplish the Federal
Activities Inventory Act reporting requirements.

The OIG Executive Development Program was
announced in February 2003 to identify OIG
employees with demonstrated leadership potential
and develop a pool of qualified individuals for
Senior Exeutive Service positions.

In March 2003, we initiated a Telework Program
designed to promote employee workplace flexibility
consistent with efficient operations and mission
accomplishment of the OIG. In addition to
reducing traffic congestion and environmental
pollution, it is aimed at increasing employee
recruiting, retention, and morale that can result
from alternative workplace programs.




                                                     52

OTHER SIGNIFICANT OIG ACTIVITIES
President’s Council on Integrity and                       working at local medical facilities. The
Efficiency                                                 presentation covered various aspects of contracting
                                                           with affiliates for health care resources.
z   The VA OIG hosted the annual retreat for all
Federal IGs from March 24-26, 2003. It was held            National Acquisition Center
in St. Michaels, Maryland, and 52 of 61 Inspectors         Pharmaceutical Conference
General attended or were represented.
                                                           A representative from the Contract Review and
z   The OIG Audit Planning Division staff                  Evaluation Division made a presentation on “How
continues to participate in the PCIE workgroup on          to Prepare for a Preaward Review” to FSS
improper and erroneous payments. This                      pharmaceutical industry representatives.
workgroup is addressing the definition of an
improper payment, identifying the challenges and           Washington, DC, Metropolitan Chapter of
root causes of improper payments, and preparing            Certified Fraud Examiners
Government-wide guidance to help reduce improper
payments.                                                  An audit manager from the OIG Central Office
                                                           Operations Division made a presentation on
z    The OIG Financial Audit Division staff                electronic scanning for network vulnerabilities at a
participated in the audit executive committee              meeting of the certified fraud examiners.
workgroup on financial statements. The
workgroup facilitates communication of financial           Pain Management Society
statement audit issues throughout the Federal
community.                                                 A healthcare inspector from the Atlanta Healthcare
                                                           Regional Office presented an abstract and
OIG Management Presentations                               information on the OIG pain management initiative
                                                           to members of the Pain Management Society
Leadership VA 2002 Program                                 during their annual conference held in Chicago.

The Inspector General made a presentation on the           Awards
work of the OIG to the Leadership VA Class of
2002. This program is VA’s premier leadership              PCIE Fifth Annual Awards Ceremony -
development program.                                       October 30, 2002

Office of Acquisition and Materiel                         z    Three staff members from the Seattle Audit
Management’s Acquisition Forums                            Operations Division received an “Award for
                                                           Excellence - Audit” in recognition of outstanding
The Counselor to the IG and an OIG representative          results achieved in a series of audits of VA supply
from the Contract Review and Evaluation Division           inventory management practices. These audits
made a presentation to VA contracting personnel            resulted in $370 million in monetary benefits and
                                                           led to significant improvements in the management




                                                     53

Other Significant OIG Activities

of supply inventories at VA medical facilities. The            Administration received an “Award for Excellence -
VA supply inventory management team consisted of               Multiple Disciplines” in recognition for their
David Sumrall, Jay Johnson, and Kent Wrathall.                 outstanding performance in recovering
                                                               approximately $25 million in cost savings to VA
z Eight staff members from the Kansas City                     while conducting a benefits review in the
Audit Operations Division received an “Award for               Philippines. The team consisted of James
Excellence - Audit” in recognition of their efforts in         Gaughran, Michael Seitler, William Withrow,
auditing VA’s Medical Care Collection Fund                     Debra Crawford, Dean Wauson, Darlene Perkins,
program. The audit identified opportunities for VA             David Spilker, Peter Moore, Marcia Drawdy,
to increase collections by about $504 million. The             Manual Mireles, Russell Lewis, Daisy Arugay,
team consisted of William Withrow, Robert Zabel,               Ronald Baker, Diane Banduch, James Price,
Joseph Janasz, Ken Myers, Carla Reid, Oscar                    Robert Ball, Jack Robinson, and Brenda Uptain.
Williams, Dennis Capps, and Henry Mendala.
                                                               z Thirty-one staff members from the Office of
z   Ten staff members from the Office of                       Healthcare Inspections and Office of Audit received
Investigations, Office of Audit, and Office of                 an “Award for Excellence - Multiple Disciplines”
Management and Administration received an                      for their review of VA owned or controlled
“Award for Excellence - Investigations” as part of             biological agents, chemicals, and radioactive
an interdisciplinary team whose hard work                      materials that have the potential for use as weapons
contributed significantly to the successful                    of mass destruction. Reviewers identified controls
investigation and prosecution of the twelve                    that needed improvement to strengthen security,
individuals who perpetrated the largest fraud                  access, inventory, and oversight requirements and
scheme in the history of VA. A total of $11.2                  procedures for safeguarding all high-risk or
million was embezzled from VA. The                             sensitive materials or agents in VHA facilities. The
embezzlement investigative team consisted of                   team consisted of Jim Marchand, Sheila Cooley,
Darlene Perkins, Danny Penton, Yolanda Johnson,                Beth MacLean, Linda DeLong, Marion Slachta,
Marcia Drawdy, Roy Nicholson, George Patton,                   Verena Briley-Hudson, Patricia Conliss, Pat Christ,
Deanna Moczygemba, Trudy Pickle, Connie                        Katherine Owens, Edna Thomas, Linda Halliday,
Meyer, and Linda Knop.                                         Julie Watrous, Lynn Scheffner, Daisy Arugay,
                                                               Shoichi Nakamura, Wilma Wong, Janet Mah,
z Eleven staff members from the Office of                      Nelson Miranda, Alvin Wiggins, Paula Chapman,
Healthcare Inspections received an “Award for                  John Tryboski, Manuel Mirales, Victoria Coates,
Excellence - Evaluations” in recognition of their              Jacqueline Strumbris, Rayna Nadal, Leslie Rogers,
review of VHA’s patient safety program that                    Vishala Sridhar, William Bailey, Orlando Vasquez,
identified ways to improve controls for ensuring the           Christa Sisterhen, and Elizabeth Bullock.
safety of vulnerable patients who are at risk of
wandering or walking away from VHA medical                     z Thirteen DAS employees received an “Award
facilities. The team consisted of Victoria Coates,             for Excellence - Management” for their efforts in
Nelson Miranda, Daisy Aruguy, Linda DeLong,                    providing data mining and analytical support of
John Rowland, Bertha Clarke, Paula Chapman,                    several high profile projects including the work
Katherine Owens, Jim Marchand, Marisa Casado,                  done in support of the national review of one-time
and Christa Sisterhen.                                         payments at 57 VAROs. Team members included
                                                               Roger Perez, Jerry Goss, Kathleen Johnson, Mary
z Eighteen staff members from the Office of                    Lopez, Deanna Moczygemba, Trudy Pickle,
Investigation, Office of Audit, Office of Healthcare
Inspections, and Office of Management and




                                                         54

                                                             Other Significant OIG Activities

Celeste Weeks, Emil Balusek, Scott Harris,
Francine Kimbrell, Gilberto Melendez, Roy
Nicholson, and Brenda Uptain.

z Eight staff members from the OIG Hotline
Division received an “Award for Excellence -
Management” in recognition of the outstanding
performance of the Hotline team in providing
exceptional support to VA and the OIG community.
Team members included Linda Greco, Emily
Junipher, Michael Kirby, Christina Lavine, Diane
McCray, Clifford Phillips, Dorcas Smith, and
Joseph Vallowe.

z The PCIE presented an “Award for Excellence
- Response to September 11 Attack” in special
recognition of the OIG community for their
unprecedented efforts in responding to the attack on
the United States that occurred on September 11,
2001, and protecting the citizens of the United
States from further attack. The following members
of the VA OIG received the award for service to
their country on that fateful day and the months
following the attack: Bruce Sackman, John
McDermott, Gregg McLaughlin, Jenny Pate, Chris
Wagner, Rubin Jackson, Thomas Valery, Jeffrey
Hughes, Samantha Lockery, Curt Vincent, and
Marl Lazarowitz.

Uniformed Health Services Award

The Department of Medicine, Uniformed Services,

University of Health Sciences, in Washington, DC,

presented the “James J. Leonard Award for

Excellence in Teaching Internal Medicine” to

Dr. George Wesley in March 2003. Students and

peers recognized Dr. Wesley, OHI’s Medical

Officer and Consultant to the IG, for his

professionalism and vital contributions to the

success of the Uniformed Services University

clinical training program.





                                                       55

Other Significant OIG Activities




                                   56

                                           APPENDIX A

                           DEPARTMENT OF VETERANS AFFAIRS
                             OFFICE OF INSPECTOR GENERAL
                                 REVIEWS BY OIG STAFF


  Report                                                        Funds Recommended
 Number/                                                           for Better Use   Questioned
Issue Date                    Report Title                       OIG     Management   Costs

COMBINED ASSESSMENT PROGRAM REVIEWS
02-01933-3    Combined Assessment Program Review of the         $1,650,000   $1,650,000
10/16/02      VA Medical Center Lexington, KY

02-01760-6    Combined Assessment Program Review of the                                   $17,326
10/18/02      Bronx VA Medical Center Bronx, NY

02-00868-15   Combined Assessment Program Review of the         $1,438,600   $1,438,600   $36,600
11/13/02      VA Medical Center San Juan, PR

02-01811-28   Summary Report of Combined Assessment
12/10/02      Program Reviews at the Veterans Health
              Administration Medical Facilities April 2001
              through September 2002

02-02248-31   Combined Assessment Program Review of the
12/13/02      VA Regional Office Nashville, TN

02-02582-36   Combined Assessment Program Review of the         $1,438,600   $1,438,600
12/20/02      VA Medical Center Boise, ID

02-01811-38   Summary Report of Combined Assessment
12/23/02      Program Reviews at the Veterans Benefits
              Administration Regional Offices June 2000
              through September 2002

02-01432-39   Combined Assessment Program Review of the          $115,000     $115,000
12/24/02      VA Medical Center Birmingham, AL

01-02641-4    Combined Assessment Program Review of the
12/26/02      Northern Arizona VA Health Care System
              Prescott, AZ

02-01430-50   Combined Assessment Program Review of the
1/23/03       Chalmers P. Wylie VA Outpatient Clinic
              Columbus, OH

03-01091-51   Summary Report of Combined Assessment
1/29/03       Program Reviews at the Veterans Health
              Administration Medical Facilities, October 2002
              through December 2002


                                                     57

  Report                                                            Funds Recommended
 Number/                                                               for Better Use   Questioned
Issue Date                     Report Title                          OIG     Management   Costs

COMBINED ASSESSMENT PROGRAM REVIEWS (Cont’d)

02-01273-55   Combined Assessment Program Review of the                                    $19,807
2/3/03        VA Medical Center West Palm Beach, FL

02-02757-63   Combined Assessment Program Review of the
2/25/03       VA Medical Center Atlanta, GA

02-03263-68   Combined Assessment Program Review of the
3/7/03        VA Salt Lake City Health Care System

02-01985-77   Combined Assessment Program Review of the
3/26/03       VA Medical Center Alexandria, LA

JOINT REVIEW

01-00679-29   Summary of the Philippines Benefit Review
12/30/02

INTERNAL AUDITS

01-02719-27   Audit of the Department of Veterans Affairs
12/4/02       Information Security Program

02-01638-47   Report of the Audit of the Department of Veterans
1/22/03       Affairs Consolidated Financial Statements for
              Fiscal Years 2002 and 2001

02-02245-64   Report of the Audit of the Department of Veterans
2/28/03       Affairs’ Franchise Fund Consolidated Financial
              Statements for Fiscal Year 2002

OTHER OFFICE OF AUDIT REVIEWS

02-00198-4    Report on Promptness of Department of Veterans
10/15/02      Affairs’ Payments to the District of Columbia Water
              and Sewer Authority for the 6 Months Ending
              September 30, 2002

02-01009-30   Evaluation of Allegations of Mismanagement in          $41,931     $41,931
12/16/02      Information Resources Management Service at
              the VA Chicago Health Care System Chicago, IL

01-01613-52   Accuracy of VA Data Used to Compute the
2/6/03        Rehabilitation Rate for Fiscal Year 2000

02-02856-76   Evaluation of Alleged Government Purchase Card
3/20/03       Misuse and Conflicts of Interest in Facilities
              Management Service at the VA San Diego Healthcare
              System
                                                     58

   Report                                                            Funds Recommended
  Number/                                                               for Better Use   Questioned
 Issue Date                      Report Title                         OIG     Management   Costs

 OTHER OFFICE OF AUDIT REVIEWS (Cont’d)

 02-01481-78    Evaluation of Selected VA Procurement and
 3/31/03        Small Business Program Issues

 CONTRACT REVIEWS *

02-02156-9                                                                                         $93,819
               Verification of Novartis Pharmaceuticals
10/22/02
               Corporation’s Self-Audit Under Federal Supply
               Schedule Contract Number V797P-5354x
02-01701-10                                                         $5,467,620
               Review of Federal Supply Schedule Proposal
10/24/02
               Submitted by Remel Inc. Under Solicitation
               Number M5-Q52D-01
 02-02935-12
               Review of Proposal Submitted by Stanford
11/4/02	       University, Under Solicitation Number
               RFP 261-0206-02, for Oral and Maxillofacial
               Surgery Services at the Department of Veterans
               Affairs Medical Center Palo Alto, CA
02-02688-16     Review of Proposal Submitted by University of
11/6/02	        Cincinnati Department of Radiology Under
                Solicitation Number 539-11-02 for Outsourced
                Referral Imaging Services for the Department
                of Veterans Affairs Medical Center Cincinnati, OH

02-02934-17     Review of Proposal Submitted by the University           $509
11/6/02	        of California, San Francisco, Under Solicitation
                Number RFP 261-0178-02, for Radiology
                Physicians Services at the Department of Veterans
                Affairs Medical Center San Francisco, CA

 02-02554-18    Review of Proposal Submitted by Stanford             $749,863
 11/7/02	       University, Under Solicitation Number
                RFP 261-0320-01, for Chief of Surgery and
                Cardiothoracic Surgery Services at the Department
                of Veterans Affairs Medical Center Palo Alto, CA

 02-02508-19    Review of Proposal Submitted by University
 11/7/02	       Radiology Associates of Cincinnati, Inc. Under
                Solicitation Number 539-05-02 for Radiation
                Therapy (Oncology) Services for the Department of
                Veterans Affairs Medical Center Cincinnati, OH

 00-02781-22    Settlement Agreement, Indigo Medical, Inc.                                          $2,144
 11/19/02

 * Management estimates are not applicable to contract reviews. Cost avoidances resulting from these reviews
 are determined when the OIG receives the contracting officer’s decision on the recommendations.

                                                        59

  Report                                                            Funds Recommended
 Number/                                                               for Better Use   Questioned
Issue Date                     Report Title                          OIG     Management   Costs

CONTRACT REVIEWS (Cont’d)

98-00110-21   Post-Award Review of Medtronic, Inc’s. Federal                              $10,420
11/20/02      Supply Schedule Contract Number V797P-3438j

02-03163-23   Review of Proposal Submitted by the University of      $418,552             $23,046
11/20/02      Utah Under Solicitation Number 660-011-02 for
              Anesthesiology Services at the Department of
              Veterans Affairs Salt Lake City Health Care System

02-02687-25   Review of Proposal Submitted by University of         $1,436,441
12/2/02	      Cincinnati, Under Solicitation Number 539-15-02,
              for On-Site Professional Imaging Services at the
              Department of Veterans Affairs Medical Center
              Cincinnati, OH

02-02635-26   Review of Proposal Submitted by Stanford               $315,878
12/2/02       University, Under Solicitation Number
              RFP 261-0057-02, for Neurosurgeon Services
              at the Department of Veterans Affairs Medical
              Center Palo Alto, CA

00-02843-42   Review of Voluntary Disclosure and Refund Offer
12/30/02	     Under Federal Supply Schedule Contract Number
              V797P-5372x, Awarded to Ortho Biotech, Incorporated

03-00687-43   Preaward Review of America Health Research
12/30/02      Institute’s Offer to Provide Mobile MRI Services
              to the VA Medical Center Alexandria, LA

00-02845-46   Review of Janssen Pharmaceutica Products, L.P.                                 $110
1/15/03       Voluntary Disclosure and Refund Offer Under
              Federal Supply Schedule Contract V797P-5306x

03-00001-48   Review of First Option Year Proposal Submitted
1/15/03	      by the Medical School of Wisconsin Under
              Contract Number V69DP-3508, for Radiology
              Services for the Department of Veterans Affairs
              Medical Center Milwaukee, WI

02-03445-49   Review of Proposal Submitted by Stanford University
1/16/03	      School of Medicine, Department of Urology, Under
              Solicitation Number 261-0234-02, for Urology
              Services at the Department of Veterans Affairs
              Palo Alto Healthcare System

02-02933-53   Review of Proposal Submitted by the University         $406,469
2/4/03	       of California, San Francisco, Under Solicitation
              Number RFP 261-0028-02, for Radiation Services
              to the Department of Veterans Affairs Medical
              Center San Francisco, CA

                                                      60

  Report                                                               Funds Recommended
 Number/                                                                  for Better Use   Questioned
Issue Date                     Report Title                             OIG     Management   Costs

CONTRACT REVIEWS (Cont’d)

03-00687-54   Review of Proposal Submitted by American Health
2/4/03	       Research Institute, Inc., Under Solicitation Number
              RFP 502-12-03, for Mobile Magnetic Resonance
              Imaging Services at the Department of Veterans
              Affairs Medical Center Alexandria, LA

03-00559-59   Review of General Electric Medical Systems, Inc.’s
2/18/03       Direct Delivery Pricing Proposal for Nuclear Imaging
              Systems Under Solicitation Number M6-Q7-02

02-02516-60   Review of Abbott Laboratories, Inc.’s Voluntary                                 $9,505
2/20/03       Disclosure and Refund Offer Under Federal Supply
              Schedule Contract Number V797P-5396x

02-02071-61   Verification of Bracco Diagnostics, Inc.’s Self-Audit                          $38,990
2/24/03       of Federal Supply Schedule Contract Number
              V797P-5261x

02-03435-62   Review of Federal Supply Schedule Proposal               $1,289,603
2/27/03       Submitted by KCI USA Under Solicitation Number
              RFP-797-FSS-99-0025-R2

93-00056-66   Settlement Agreement, Postaward Review of                                    $5,000,000
3/4/03        Pharmaceutical Manufacturer

99-00120-65   Settlement Agreement, Postaward Review of                                   $10,500,000
3/5/03        Medical Supply Manufacturer

03-00818-67   Review of Proposal Submitted by the Medical
3/5/03        College of Virginia Physicians Under Solicitation
              Number 652-049-02 for Radiation Oncology
              Services at VAMC Richmond, VA

02-02041-69   Review of Federal Supply Schedule Proposal              $30,458,367
3/11/03       Submitted by Becton, Dickinson & Company
              Under Solicitation Number RFP-797-FSS-99-0025

00-02784-70   Review of Centocor, Inc.’s Analysis of Contract                                $12,498
3/12/03       Compliance for Federal Supply Schedule Contract
              Number V797P-5292x

02-01684-73   Review of Voluntary Disclosure of Defective Pricing                            $13,924
3/17/03       Submitted by Carepoint Cardiac Corporation dba
              Spectral USA Under Federal Supply Schedule
              Contract Number V797P-5444x

99-00101-75   Review of Serono Laboratories Inc.’s Implementation
3/19/03       of Section 603, Drug Pricing Provisions of Public Law
              102-585, Under Federal Supply Schedule Contract
              Number V797P-5159x
                                                       61

  Report                                                                Funds Recommended
 Number/                                                                   for Better Use   Questioned
Issue Date                      Report Title                             OIG     Management   Costs

HEALTHCARE INSPECTIONS

02-01221-1     Healthcare Inspection, Patient Care Issues Greater
10/4/02        Los Angeles Healthcare System Los Angeles, CA

01-02341-2     Healthcare Inspection, Patient Care and Management
10/4/02	       Issues at the Department of Veterans Affairs Medical
               Center San Juan, PR

02-02177-5     Healthcare Inspection, Infection Control and Patient
10/10/02	      Care Issues, Harry S. Truman Memorial Veterans
               Hospital Columbia, MO

02-02374-8     Healthcare Inspection, Patient Care Issues Department
10/18/02	      of Veterans Affairs Hudson Valley Health Care System
               Franklin Delano Roosevelt Campus Montrose, NY

01-02748-7     Healthcare Inspection, Discharge Planning and Other
10/25/02	      Patient Care Issues at the VA Northern Indiana
               Healthcare System

02-02514-13    Healthcare Inspection and Investigation, Care Provided
11/4/02	       to a Patient with Hepatitis C, Washington, DC, VA
               Medical Center

01-01340-14    Healthcare Inspection, Patient Care and Employee
11/13/02	      Conduct Issues, VA New Jersey Healthcare System
               East Orange, NJ

01-01965-24    Healthcare Inspection Summary Review, Evaluation
11/25/02	      of Veterans Health Administration Procedures for
               Communicating Abnormal Test Results

02-01980-34    Healthcare Inspection, Patient Treatment Issues,
12/16/02       Orlando VA Healthcare Center Orlando, FL

02-00265-35    Healthcare Inspection, Medical and Surgical Care
12/16/02	      Issues at the Department of Veterans Affairs Northern
               Indiana Health Care System Fort Wayne, IN

01-01968-41    Healthcare Inspection, Evaluation of Veterans Health
12/24/02	      Administration Medical Record Security and Privacy
               Practices

02-00972-44    Healthcare Inspection, Evaluation of the Veterans
12/31/02	      Health Administration’s Contract Community
               Nursing Home Program

 02-02706-45   Healthcare Inspection, Quality of Care Issues,
1/10/03        Amarillo VA Health Care System Amarillo, TX



                                                       62

  Report                                                              Funds Recommended
 Number/                                                                 for Better Use   Questioned
Issue Date                     Report Title                            OIG     Management   Costs

HEALTHCARE INSPECTIONS (Cont’d)

03-00003-56   Healthcare Inspection, Medical Treatment Issues,
2/4/03        VA Greater Los Angeles Healthcare System
              Los Angeles, CA

03-00052-74   Healthcare Inspection, Medical Oxygen System
3/18/03       at the VA Medical and Regional Office Center
              Wilmington, DE

ADMINISTRATIVE INVESTIGATIONS

02-01946-11   Administrative Investigation, Nonprofit Research
10/31/02      and Education Corporation Issue VA Medical
              Center Miami, FL

02-01289-20   Administrative Investigation, Physician Time and                                     $4,779
11/19/02      Attendance Issue, James A. Haley Veterans’
              Hospital Tampa, FL

02-01912-33   Administrative Investigation, Use of Government                                       $868
12/13/02      Resources Issues, Fort Rosecrans National
              Cemetery San Diego, CA

02-02754-32   Administrative Investigation, Physician Board
12/18/02      Certification Issue, Veterans Health Administration,
              VA Central Office Washington, DC

02-02351-37   Administrative Investigation, Acceptance of                                         $30,687
1/2/03        Speaking Fees and Donations from Pharmaceutical
              Companies, VA San Diego Healthcare System
              San Diego, CA

02-02419-57   Administrative Investigation, Physician Time and
2/12/03       Attendance Issue, Edward Hines, Jr. VA Hospital
              Hines, IL

02-02938-58   Administrative Investigation, Privacy Act Issue,
2/13/03       New Mexico VA Health Care System
              Albuquerque, NM

03-00346-71   Administrative Investigation, Compensation and                                       $7,700
3/17/03       Acceptance of Travel Payments Issues,
              VA Medical Center Lexington, KY

02-02875-72   Administrative Investigation, Use of Official Time
3/18/03       Issue, VA Medical Center Augusta, GA


TOTAL:                   78 Reports                                  $43,984,795   $3,441,493 $15,822,223


                                                       63

64

                                              APPENDIX B


             STATUS OF OIG REPORTS UNIMPLEMENTED FOR OVER 1 YEAR

The Federal Acquisition Streamlining Act of 1994 provides guidance on prompt management decisions and
implementation of OIG recommendations. It states a Federal agency shall complete final action on each
recommendation in an OIG report within 12 months after the report is finalized. If the agency fails to complete
final action within this period, the OIG will identify the matter in their semiannual report to Congress until the
final action is completed. This appendix summarizes the status of OIG unimplemented reports and
recommendations.

The OIG requires that management officials provide documentation showing the completion of corrective
actions on OIG recommendations. In turn, OIG reviews status reports submitted by management officials to
assess both the adequacy and timeliness of agreed-upon implementation actions. When a status report
adequately documents corrective actions, OIG closes the recommendation. If the actions do not implement the
recommendation, we continue to monitor progress.

The number of reports in this category declined significantly, dropping from 80 in FY 1996 to only 10 as of
March 31, 2003. The following chart lists the total number of unimplemented OIG reports and
recommendations by organization. It also provides the total number of unimplemented reports and
recommendations issued over 1 year ago (March 31, 2002, and earlier).


                           Unimple me nte d OIG R e ports and R e comme ndations
                                                                      Is s ue d 3/31/02,
                             VA                      Total
                                                                         and Earlie r
                            Office
                                           R e pts       R e coms    R e pts    R e coms
                             VHA             33              116        6           15
                           A&MM1             22               46        0            0
                             VBA              7               20        3            8
                                  2
                             I&T              2               24        0            0
                                      3
                         VHA/S&LE             1               15        1           15
                             Total           65              221       10           38


The OIG is particularly concerned with three reports on VHA operations, issued in 1996, 1997, and 1999,
respectively, with recommendations that still remain open. The following information provides a summary of
reports over a year old with open recommendations.




1 Office of Acquisition and Materiel Management (A&MM)
2 Office of Information and Technology (I&T)
3 Office of Security and Law Enforcement (S&LE)


                                                         65

Veterans Health Administration
Unimplemented Recommendations and Status

Report: Evaluation of VHA’s Policies and Practices for Managing Violent and Potentially Violent
Psychiatric Patients, 6HI-A28-038, 3/28/96

Recommendation:
   1. The Under Secretary for Health should explore network flagging systems that would ensure employees
      at all VAMCs are alerted when patients with histories of violence present for treatment to their medical
      centers.

Status: This requires action by both the VHA Chief Consultant for Mental Health and the VHA Information
Office. The VHA Chief Consultant for Mental Health is finalizing the patient flagging directive and
anticipates approval by mid-August 2003. The VHA Information Office is using VISN 7 to beta test an
automated system-wide tracking program for patient advisory flags. Full field activation is scheduled for
September 2003.

                                                 **********

Report: Internal Controls Over the Fee-Basis Program, 7R3-A05-099, 6/20/97

Recommendations: The Under Secretary for Health should improve the cost effectiveness of home health
services by:
    1. Establishing guidelines for contracting for such services.
    2. Providing contracting officers with benchmark rates for determining the reasonableness of charges.

Status: The Chief Consultant, Geriatrics and Extended Care has reported that a comprehensive home health
care reimbursement policy is not possible at this time and will need to follow the development of a regulation
that will govern a large portion of VA’s home care arrangements, particularly in skilled home care. VHA’s
Business Office and Office of General Counsel are drafting the regulation. VHA will publish a complete home
health care reimbursement policy within three months of the regulation’s being promulgated.

                                                 **********

Report: Evaluation of VHA’s Income Verification Match (IVM) Program, 9R1-G01-054,
3/15/99

Recommendations: The Under Secretary for Health should:
   1. Require the Chief Network Officer to ensure that VISN Directors establish performance standards and
      quality monitors, and strengthen procedures and controls for means testing activities and billing and
      collection of Health Eligibility Center (HEC) referrals to include:
      (a) obtaining quarterly reports from the HEC of the number of cases referred and the number of cases
          billed and not billed for each facility, and
      (b) reviewing a sample of cases to verify appropriate billing and compliance with the 60-day billing
          standard and to determine why unbilled referrals were not billed and taking appropriate corrective
          action.




                                                      66

    2. Requiring the Chief Information Officer to develop performance measures and monitor periodic
       performance reports to ensure the HEC:
       (a) performs multiple year income verification, and
       (b) transmits all billing referrals to facilities.
    3. Expedite action to centralize means testing activities at the HEC.

Status: The VHA Chief Business Officer has initiated the IVM process in March 2003, with actual reports to
be available during the third quarter, FY 2003. The VHA Chief Business Officer has procedures and/or
policies in place to address all of the recommendations outlined above. The multiple year IVM process will be
initiated first quarter FY 2004, since multiple year data is not currently available. VHA has received first line
approval for implementing the new means test program.

                                                   **********

Report: Administrative Investigation, Irregularities in Employee Relocation Reimbursements and the
Workers’ Compensation Program, VAMC West Palm Beach, FL, 00-01632-117, 7/20/01

Recommendations: The VISN 8 Director should:
   1. Take appropriate administrative action against the VAMC Director for allowing the Chief, Human
      Resources Management Service, and the Chief, Business Office to avoid Federal requirements to
      report job-related injuries, and bill associated costs, to the Department of Labor.
   2. Take appropriate administrative action against the Chief, Human Resources Management Service for
      violating Federal requirements to report job-related injuries, and bill associated costs, to the
      Department of Labor.
   3. Take appropriate administrative action against the VAMC Director and Chief, Human Resources
      Management Service for not ensuring that medical center employees are adequately informed of their
      workers’ compensation program rights, and against the VAMC Director for improperly denying three
      employees continuation of pay benefits.

Status: In regards to the VAMC Director, the VHA Human Resources Management Group has formulated a
proposal for review by the Office of General Counsel and Office of Human Resources Management (HRM) in
accordance with the VA Secretary’s memo regarding senior management conduct and performance issues,
dated June 8, 2001. The level of appropriate administrative action for the Human Resource Manager was
predicated on an advisory opinion from HRM regarding a finding that a prohibited personnel practice had been
committed in connection with another matter involving that facility. HRM provided the advisory opinion on
March 28, 2003.

                                                   **********

Report: Evaluation of VHA Coding Accuracy and Compliance Program, 01-00026-68, 2/25/02

Recommendation:
   1. The Under Secretary for Health should issue additional guidance requiring that VHA facility managers
      set incremental goals to reduce error rates to less than 5 percent, complete the billing process within a
      reasonable timeframe, make immediate corrections when billing errors are identified, and implement
      uniform coding and billing internal review processes.

Status: This requires action by both the VHA Compliance and Business Integrity (CBI) Office and the
Business Office. The CBI Office stated a work group met in January 2003 to focus on the more technical,
operational issues pertaining to the implementation of the final version of the CBI indicators. These indicators
include coding accuracy, billing accuracy, and accuracy of clinical provider information to support third-party

                                                       67

bills, and presence of documentation to support first-party (co-pay) bills. The Executive Committee of the
National Leadership Board recommended that the indicators, when completed, should be included in ongoing
review of operations discussions with VISN Directors. The proposed CBI indicators are currently being
considered by the performance measures workgroup. Final implementation of the revised indicators is
projected for July 2003. The Chief Business Office is currently conducting a pilot improvement effort in VISN
10. Site visits have been completed at six VISN 10 sites and initial observations have been drafted. Once all
site visits have been completed, the Business Office operations strategy document and implementation plan will
be developed to incorporate the recommended changes. These documents are scheduled for completion by
May 2003.

                                                   **********

Report: Audit of the Medical Care Collection Fund (MCCF) Program, 01-00046-65, 2/26/02

Recommendations: The Under Secretary for Health should improve MCCF program operations by:
   1. Improving medical record documentation so that treatment is coded accurately and properly billed.
   2. Ensuring that VA medical facilities use the preregistration software as required.
   3. Establishing performance standards for clinical and administrative staff involved in all phases of the
      MCCF (patient registration, coding, billing, collection, and utilization review) and requiring VISN and
      VA medical facility Directors to monitor performance results and take action to improve performance
      gaps (such as making additional resources available for MCCF functions as justified by performance
      standards).

Status: This requires action by three VHA offices.
1. The VHA Information Office is revising the health information management handbook that reflects the
MCCF enhancements. The handbook will be in the coordination process shortly.
2. The VHA Chief Business Office has submitted a project request for an enhancement to the VHA diagnostic
measures to include a new report on a national basis on the use of the preregistration software. The addition of
this report to the diagnostic measures website will allow VHA to ensure that facilities are using the software as
required. This enhancement is scheduled for implementation by Spring 2004.
3. The VHA Compliance and Business Integrity Office stated a work group met in January 2003 to focus on
some of the more technical, operational issues pertaining to the implementation of the final version of the
Compliance and Business Integrity indicators. These indicators include coding accuracy, billing accuracy, and
accuracy of clinical provider information to support third-party bills, and presence of documentation to
support first-party (co-pay) bills. The Executive Committee of the National Leadership Board was briefed in
January 2003 and recommended that the indicators, when completed, should be included in ongoing review of
operations discussions with VISN Directors. The proposed indicators are currently being considered by the
performance measures workgroup. Final implementation of the revised indicators is projected for July 2003.

                                                   **********


Joint (Veterans Health Administration and Office of
Security and Law Enforcement)
Unimplemented Recommendations and Status

Report: Review of Security and Inventory Controls Over Selected Biological, Chemical, and Radioactive
Agents Owned by or Controlled at VA Facilities, 02-00266-76, 3/14/02




                                                       68

Recommendations: The Under Secretary for Health, in conjunction with senior policy, research, and
operations manages, need to:
    1. Redefine and strengthen security and access requirements and procedures for safeguarding high-risk
        agents and materials used in VA facilities, such as the agents on the Centers for Disease Control and
        Prevention Select Agents List, other biological agents, toxic chemicals, and certain pharmaceuticals
        that might be targeted for use by terrorists.
    2. Improve personnel access controls and reduce vulnerabilities to theft of selected agents by
        implementing measures such as the consistent use of photo identification badges with expiration dates,
        installation of electronically controlled entry points to and from sensitive areas, and use of key-card
        systems, video surveillance, and/or biometric systems.
    3. Review documents related to VA leased-space to others for research use (e.g., to an affiliated
        university) to ensure that VA’s agreements define security responsibilities and limitations.
    4. Clarify VA’s accountability and responsibilities for actions of non-VA persons supervising VA or non-
        VA research in VA facilities or in VA space leased to other institutions.
    5. Strengthen controls for authorizing and procuring high-risk materials and agents including biological
        agents, and ensure that inventory, transfer, and validated destruction policies and procedures account
        for biological agents and chemicals at all times. Additionally, procedures should outline appropriate
        requirements for the use of witnesses to verify transfer and destruction processes.
    6. Require managers to transfer, dispose of, or establish delimiting dates on select agents no longer in use
        and stored in research and clinical laboratories.
    7. Reevaluate the extent of compliance with radiation safety and handling/delivery procedures,
        particularly vendor deliveries after regular working hours and on weekends. In addition, facility
        managers should require contractors and vendors to provide evidence that background and legal
        histories on their employees are checked before they are allowed to access sensitive VA areas.
    8. Strengthen human resource management controls and procedures to consistently verify or update non-
        citizens’ legal residence or employment status while working in VA facilities or on VA matters,
        including students and contractors.
    9. Reevaluate the adequacy of security clearance level requirements for employees who could have access
        to or work with highly sensitive agents and materials.
    10. Take action on non-citizen employees without valid legal status and notify appropriate legal
        authorities.
    11. Take action on any noncitizens with access to VHA research and clinical laboratories if they are
        considered “restricted persons” according to the USA Patriot Act.
    12. Ensure clearance and checkout procedures extend to employees without compensation and contract
        employees.
    13. Issue guidance to revise local disaster plans to include provisions for responding to terrorist activities.
    14. Direct managers at all facilities to perform vulnerability assessments of their physical research and
        clinical laboratories and consistently implement security measures.
    15. Provide researchers and other appropriate personnel necessary training on security issues, including
        security of high-risk and sensitive agents, and procedures to forward requests for research articles
        through their managers and the facility Freedom of Information Act officer.

Status: This report requires action by VHA and the Office of Security and Law Enforcement (S&LE). On
March 21, 2002, the VA Deputy Secretary requested the Under Secretary for Health and the Assistant
Secretary for Policy and Planning to provide him a joint report that certifies that all the recommendations have
been completed by September 30, 2002. As of March 31, 2003, 15 of 16 recommendations remain
unimplemented. The remaining unimplemented actions include the following. The Office of Research and
Development will systematically review all research sites over the next 3 years as part of its infrastructure
program to identify and continue to fund equipment needs that include security devices. To comply with
federal regulations, VHA needs to reevaluate actions taken and planned to ensure they have fully addressed the
security and inventory controls over any sensitive or dangerous biological, chemical, and radioactive agents or

                                                        69

materials owned by or controlled at VA facilities - not just those used in VHA research laboratories. The OIG
recommendations made to VHA are consistent with requirements outlined in the Public Health Security and
Bioterrorism Preparedness and Response Act of 2002 (42 Code of Federal Regulations 73). According to the
Centers for Disease Control and Prevention Laboratory Security and Emergency Response Guidance for
Laboratories Working with Select Agents, issued December 6, 2002, these requirements are for clinical and
research laboratories where select agents are used under biosafety levels 2, 3, or 4. The guidance includes
instructions regarding personnel, risk assessments, and inventory controls. The OIG recommendations are also
consistent with the United and Strengthening America by Providing Appropriate Tools Required to Intercept
and Obstruct Terrorism (USA Patriot) Act of 2001, which prohibits restricted persons from access to select
agents. Violation of either of these statutes carries potential criminal penalties. Therefore, it is important that
all VAMC directors who have biosafety levels 2, 3, or 4 laboratories at their facilities certify that VHA
guidance is implemented. The S&LE office has drafted a revised VA Directive and Handbook 0710,
“Personnel and Classified Information Security” and it is in Department-wide concurrence. After receiving
concurrences, they will both be published. Also in January 2003, the office began revising VA Directive and
Handbook 0730, “Security and Law Enforcement.” Expected publication is by the end of FY 2003. As an
interim measure to immediately address this issue, VHA and S&LE issued a joint memorandum on July 29,
2002 to VHA field facilities. This memorandum contained instructions for conducting assessments and
making immediate changes to the physical security of VHA clinical and research laboratories. The
memorandum instructed field facilities to apply already existing Department physical security standards.
Based on that memorandum, OS&LE inspectors have begun reviewing VHA clinical and research lab security
as part of routine, on-site program inspections.

                                                    **********


Veterans Benefits Administration
Unimplemented Recommendations and Status

Report: Audit of the Compensation and Pension Program’s Internal Controls at VA Regional Office, St.
Petersburg, FL, 99-00169-97, 7/18/00

Recommendations: The Under Secretary for Benefits should:
   1. Establish a positive control Benefits Delivery Network (BDN) system edit keyed to employee
      identification number that ensures employee claims are adjudicated only at the assigned regional office
      of jurisdiction and prevents employees from adjudicating matters involving fellow employees and
      veterans service officers at their home office.
   2. Determine the feasibility of direct input and storage of rating decisions in BDN.
   3. Establish a BDN system field for third-person authorization and a control to prevent release of
      payments greater than $15,000 without the third-person authorization.
   4. Issue guidelines for the proper and effective handling of drop-mail to ensure continued entitlement.
   5. Take steps necessary to make use of Social Security numbers as employee identification numbers, and
      tie BDN access to Social Security numbers.
   6. Verify continued entitlement of beneficiaries who are over 100 years of age, and beneficiaries with
      whom VBA has not had contact during a prescribed period of time.

Status:
1. The Modern Awards Processing (MAP) system, which is the replacement system to BDN, will incorporate
this control. In the interim, VBA will ensure adherence to existing policy regarding the sensitivity access levels
and the monitoring of the generated reports.
2. National deployment of Rating Board Automation 2000 addresses this recommendation. Full utilization is
targeted for July 2003.

                                                        70

3. The MAP will audit and require a third electronic signature anytime an award would generate payment in
excess of the applicable limit. In addition, program integrity plans include utilization of data mining to
identify areas such as these for potential fraud. As MAP is designed, this control will be incorporated. Final
stages of MAP deployment is scheduled in the fourth quarter, FY 2004.
4. A nationwide contract has been initiated for on-line access to address information at all VAROs. Full
implementation in scheduled for the third quarter, FY 2003.
5. VBA completed the assessment study to determine the implementation strategy for the new BDN computer
system and the newest version of the Bull Operating System. The implementation will eliminate the need for
multiple BDN identifications. The estimated completion date is December 2003. In addition, VBA completed
the evaluation of whether to modify the BDN to include Social Security numbers. These modifications will be
completed by November 2003.
6. Writeouts for beneficiaries turning 100 years old in 2003 and all beneficiaries 101 years and older were
generated to all VAROs in January 2003. The OIG will close this recommendation when VBA starts VARO
oversight.

                                                    **********

Report: Audit of VBA’s Income Verification Match Results, 99-00054-1, 11/8/00

Recommendation:
   1. The Under Secretary for Benefits should complete necessary data validation of beneficiary identifier
      information contained in Compensation and Pension master records to reduce the number of
      unmatched records with Social Security Administration. (This is a repeat recommendation from the
      1990 OIG report.)

Status: The installation date for the project initiation request modifying the Social Security number
verification process is April 2003. Once it is installed, VBA will validate the output and release it to the field,
if it is acceptable.

                                                    **********

Report: Follow Up Evaluation of the Causes of Compensation and Pension (C&P) Overpayments, 01-
00263-53, 2/20/02

Recommendation:
   1. The Under Secretary for Benefits should reduce C&P benefit overpayments by revising processing
      procedures and clarifying VA policy to proactively suspend benefits when bad addresses cannot be
      resolved.

Status: Due to the FY 2003 continuing resolutions, the procurement package for a nationwide address locator
service was delayed. VBA anticipates contracting for the service and software no earlier than the fourth
quarter, FY 2003. Once the software is delivered to the VAROs, VBA will issue the manual change to the field
stations. These procedures are anticipated to be in place by the end of FY 2003.




                                                        71

72

                                                 APPENDIX C


                      INSPECTOR GENERAL ACT REPORTING REQUIREMENTS

The table below cross-references the specific pages in this semiannual report to the reporting requirements
where they are prescribed by the Inspector General Act of 1978 (Public Law 95-452), as amended by the
Inspector General Act Amendments of 1988 (Public Law 100-504), and the Omnibus Consolidated
Appropriations Act of 1997 (Public Law 104-208).

 IG Act
References                                 Reporting Requirement                                        Page

Section 4 (a) (2)      Review of legislation and regulations                                              47

Section 5 (a) (1)      Significant problems, abuses, and deficiencies                                   1-49

Section 5 (a) (2)      Recommendations with respect to significant problems, abuses, and                1-49
                       deficiencies

Section 5 (a) (3)      Prior significant recommendations on which corrective action has not been          65
                       completed                                                                       (App. B)

Section 5 (a) (4)      Matters referred to prosecutive authorities and resulting prosecutions and         i
                       convictions

Section 5 (a) (5)      Summary of instances where information was refused                                 74
                                                                                                       (App. C)

Section 5 (a) (6)      List of audit reports by subject matter, showing dollar value of questioned     57 to 63
                       costs and recommendations that funds be put to better use                       (App. A)

Section 5 (a) (7)      Summary of each particularly significant report                                   i to v

Section 5 (a) (8)      Statistical tables showing number of reports and dollar value of questioned        75
                       costs for unresolved, issued, and resolved reports                              (Table 1)

Section 5 (a) (9)      Statistical tables showing number of reports and dollar value of                   76
                       recommendations that funds be put to better use for unresolved, issued, and     (Table 2)
                       resolved reports

Section 5 (a) (10)	    Summary of each audit report issued before this reporting period for which no      74
                       management decision was made by end of reporting period                         (App. C)

Section 5 (a) (11)     Significant revised management decisions                                           74
                                                                                                       (App. C)

Section 5 (a) (12)	    Significant management decisions with which the Inspector General is in            74
                       disagreement                                                                    (App. C)

Section 5 (a) (13)	    Information described under section 05(b) of the Federal Financial                 74
                       Management Improvement Act of 1996 (Public Law 104-208)                         (App. C)



                                                            73

           INSPECTOR GENERAL ACT REPORTING REQUIREMENTS (CONT’D)

Prior Significant Recommendations Without Corrective Action and Significant Management
Decisions

The IG Act requires identification of: (i) significant revised management decisions, and (ii) significant
management decisions with which the OIG is in disagreement. During this 6-month period, there were no
reportable instances under the Act.

Obtaining Required Information or Assistance

The IG Act requires the OIG to report instances where access to records or assistance requested was
unreasonably refused, thus hindering the ability to conduct audits or investigations. During this 6-month
period, there were no reportable instances under the Act.

Federal Financial Management Improvement Act of 1996 (Public Law 104-208)

The IG Act requires the OIG to report instances and reasons when VA has not met the intermediate target dates
established in the VA remediation plan to bring VA’s financial management system into substantial compliance
with the requirements of Public Law 104-208. The OIG has reported in our Report of the Audit of the
Department of Veterans Affairs Consolidated Financial Statements for Fiscal Years 2002 and 2001 (Report
Number 02-01638-47, Issued 1/22/03), that corrective action dates in the VA remediation plan are all in the
future.

Reports Issued Before this Reporting Period Without a Management Decision Made by the
end of the Reporting Period

The IG Act requires a summary of audit reports issued before this reporting period for which no management
decision was made by the end of the reporting period. There were no internal OIG reports unresolved for over 6
months. However, there were three contract review unresolved reports for which a contracting officer decision
has not been made for over 6 months. They are: Review of Proposal Submitted by Spacelabs Medical, Under
Solicitation Number RFP-797-FSS-99-0025, for Medical Equipment and Supplies (Report No. 01-01584-136,
Issued 9/14/01); Review of Proposal Submitted by the University of Washington Under Solicitation Number
RFP V663P-22-02 for Anesthesiology Services at the VA Puget Sound Heath Care System, Seattle Division
(Report No. 02-00623-94, Issued 5/1/02); and Review of FSS Proposal Submitted by Johnson & Johnson
Health Care Systems, Inc., on Behalf of Lifescan, Inc., Under Solicitation Number M5-Q52D-01 (Report No.
01-02822-126, Issued 6/26/02). These reports will be closed after the OIG receives the contracting officer
price negotiation memorandum following contract awards. The contract awards are anticipated by December
2003.

Statistical Tables 1 and 2 Showing Number of Unresolved Reports

As required by the IG Act, Tables 1 and 2 provide statistical summaries of unresolved and resolved reports for
this reporting period. Specifically, they provide summaries of the number of OIG reports with potential monetary
benefits that were unresolved at the beginning of the period, the number of reports issued and resolved during the
period with potential monetary benefits, and the number of reports with potential monetary benefits that remained
unresolved at the end of the period.




                                                        74

TABLE 1 - RESOLUTION STATUS OF REPORTS WITH QUESTIONED COSTS


This table provides the resolution status information required by the IG Act. It summarizes the reports with
questioned costs.


                                                                     N U MB ER        QU ESTION ED
                    R ESOLU TION STATU S                                 OF               C OSTS
                                                                     R EPOR TS         (In Millions)

     No management deci si on by 9/30/02                                    0                 $0

     Issued duri ng reporti ng peri od                                    18                  $15.8

         Total Inventory This Period                                      18                  $15.8

     Management deci si on duri ng reporti ng peri od

       D i sallowed costs (agreed to by management)                       18                  $15.8

       Allowed costs (not agreed to by management)                          0                 $0

         Total Management D ecisions This Period                          18                  $15.8

         Total C arried Over to N ext Period                                0                 $0




Definitions:

z    Questioned Costs
         For audit reports, it is the amounts paid by VA and unbilled amounts for which the OIG recommends
VA pursue collection, including Government property, services or benefits provided to ineligible recipients;
recommended collections of money inadvertently or erroneously paid out; and recommended collections or
offsets for overcharges or ineligible costs claimed.
         For contract review reports, it is contractor costs OIG recommends be disallowed by the contracting
officer or other management official. Costs normally result from a finding that expenditures were not made in
accordance with applicable laws, regulations, contracts, or other agreements; or a finding that the expenditure
of funds for the intended purpose was unnecessary or unreasonable.

z    Disallowed Costs are costs that contracting officers or management officials have determined should not
be charged to the Government and which will be pursued for recovery; or on which management has agreed
that VA should bill for property, services, benefits provided, monies erroneously paid out, overcharges, etc.
Disallowed costs do not necessarily represent the actual amount of money that will be recovered by the
Government due to unsuccessful collection actions, appeal decisions, or other similar actions.

z  Allowed Costs are amounts on which contracting officers or management officials have determined that
VA will not pursue recovery of funds.




                                                       75

TABLE 2 - RESOLUTION STATUS OF REPORTS WITH RECOMMENDED
          FUNDS TO BE PUT TO BETTER USE BY MANAGEMENT

This table provides the resolution status information required by the IG Act. It summarizes the reports with
recommended funds to be put to better use by management.


                                                                 N U MB ER        R EC OMMEN D ED
                                                                     OF          FU N D S TO B E P U T
                  R ESOLU TION STATU S
                                                                 R EPOR TS        TO B E TTE R U S E
                                                                                     (In Millions)

    No management deci si on by 9/30/02                                 8                     $20.3

    Issued duri ng reporti ng peri od                                 14                      $44.0

         Total Inventory This Period                                  22                      $64.3

    Management deci si ons duri ng reporti ng peri od

      Agreed to by management                                          11                       $7.1

      Not agreed to by management                                       0                       $0.0

         Total Management D ecisions This Period                      11                        $7.1

         Total C arried Over to N ext Period                          11                      $57.2


Definitions:

z   Recommended Better Use of Funds
         For audit reports, it represents a quantification of funds that could be used more efficiently if
management took actions to complete recommendations pertaining to deobligation of funds, costs not incurred
by implementing recommended improvements, and other savings identified in audit reports.
         For contract review reports, it is the sum of the questioned and unsupported costs identified in
preaward contract reviews which the OIG recommends be disallowed in negotiations unless additional evidence
supporting the costs is provided. Questioned costs normally result from findings such as a failure to comply
with regulations or contract requirements, mathematical errors, duplication of costs, proposal of excessive
rates, or differences in accounting methodology. Unsupported costs result from a finding that inadequate
documentation exists to enable the auditor to make a determination concerning allowability of costs proposed.

z   Dollar Value of Recommendations Agreed to by Management provides the OIG estimate of funds that
will be used more efficiently based on management’s agreement to implement actions, or the amount
contracting officers disallowed in negotiations, including the amount associated with contracts that were not
awarded as a result of audits.

z   Dollar Value of Recommendations Not Agreed to by Management is the amount associated with
recommendations that management decided will not be implemented, or the amount of questioned and/or
unsupported costs that contracting officers decided to allow.




                                                      76

                                                 APPENDIX D


                                       OIG OPERATIONS PHONE LIST


Investigations


Headquarters Investigations Washington, DC ..................................................... (202) 565-7702

Northeast Field Office (51NY) New York, NY ...................................................... (212) 951-6307

      Boston Resident Agency (51BN) Bedford, MA .................................................. (781) 687-3139

      Newark Resident Agency (51NJ) Newark, NJ .................................................... (973) 297-3338

      Pittsburgh Resident Agency (51PB) Pittsburgh, PA ............................................ (412) 784-3818

      Washington Resident Agency (51WA) Washington, DC ...................................... (202) 530-9191

Southeast Field Office (51SP) Bay Pines, FL ........................................................... (727) 398-9559

      Atlanta Resident Agency (51AT) Atlanta, GA .................................................... (404) 929-5950

      Columbia Resident Agency (51CS) Columbia, SC .............................................. (803) 695-6707

      Nashville Resident Agency (51NV) Nashville, TN .............................................. (615) 695-6373

      West Palm Beach Resident Agency (51WP) West Palm Beach, FL ...................... (561) 882-7720

Central Field Office (51CH) Chicago, IL ................................................................ (708) 202-2676

      Denver Resident Agency (51DV) Denver, CO ................................................... (303) 331-7673

      Cleveland Resident Agency (51CL) Cleveland, OH ............................................ (440) 717-2832

      Kansas City Resident Agency (51KC) Kansas City, KS....................................... (913) 551-1439

South Central Field Office (51DA) Dallas, TX ........................................................ (214) 655-6022

      Houston Resident Agency (51HU) Houston, TX................................................ (713) 794-3652

      New Orleans Resident Agency (51NO) New Orleans, LA .................................. (504) 619-4340

Western Field Office (51LA) Los Angeles, CA ........................................................ (310) 268-4268

      Phoenix Resident Agency (51PX) Phoenix, AZ .................................................. (602) 640-4684

      San Diego Resident Agency (51SD) San Diego, CA .......................................... (619) 400-5326

      San Francisco Resident Agency (51SF) Oakland, CA ......................................... (510) 637-1074

      Seattle Resident Agency (51SE) Seattle, WA......................................... (206) 220-6654, ext 31





                                                            77

                               OIG OPERATIONS PHONE LIST (CONT’D)


Healthcare Inspections


Central Office Operations Washington, DC ......................................................... (202) 565-8305

Healthcare Regional Office Washington (54DC) Washington, DC .................... (202) 565-8452

Healthcare Regional Office Atlanta (54AT) Atlanta, GA .................................... (404) 929-5961

Healthcare Regional Office Bedford (54BN) Bedford, MA .................................. (781) 687-2134

Healthcare Regional Office Chicago (54CH) Chicago, IL .................................. (708) 202-2672

Healthcare Regional Office Dallas (54DA) Dallas, TX .......................................... (214) 655-6000

Healthcare Regional Office Los Angeles (54LA) Los Angeles, CA ..................... (310) 268-3005




Audit


Central Office Operations Washington, DC ......................................................... (202) 565-4625

Central Office Operations Division (52CO) Washington, DC ................................ (202) 565-4434

Contract Review and Evaluation Division (52C) Washington, DC ........................ (202) 565-4818

Financial Audit Division (52CF) Washington, DC .................................................. (202) 565-7913

Operations Division Atlanta (52AT) Atlanta, GA ................................................... (404) 929-5921

Operations Division Bedford (52BN) Bedford, MA ................................................ (781) 687-3120

Operations Division Chicago (52CH) Chicago, IL .................................................. (708) 202-2667

Operations Division Dallas (52DA) Dallas, TX ........................................................ (214) 655-6000

      Austin Residence (52AU) Austin, TX ................................................................ (512) 326-6216

Operations Division Kansas City (52KC) Kansas City, MO .................................. (816) 426-7100

Operations Division Los Angeles (52LA) Los Angeles, CA ..................................... (310) 268-4335

Operations Division Seattle (52SE) Seattle, WA ...................................................... (206) 220-6654





                                                            78

                               APPENDIX E


                                 GLOSSARY


A&MM      Acquisition and Materiel Management

BDN       Benefits Delivery Network

C&P       Compensation and Pension

CAP       Combined Assessment Program

CBI       Compliance and Business Integrity

CIO       Chief Information Officer

CNH       Community Nursing Home

DAS       Data Analysis Section

DAS       Deputy Assistant Secretary

FBI       Federal Bureau of Investigation

FDA       Food and Drug Administration

FOIA/PA   Freedom of Information Act/Privacy Act

FSS       Federal Supply Schedule

FTE       Full Time Equivalent

FY        Fiscal Year

HEC       Health Eligibility Center

H/HHA     Homemaker/Home Health Aide

HRM       Office of Human Resource Management

HUD       Department of Housing and Urban Development

I&T       Office of Information and Technology

IG        Inspector General

IT        Information Technology

IV        Intravenous
IVM       Income Verification Match
MAP       Modern Awards Processing
MCCF      Medical Care Cost Funds
MCI       Master Case Index
NCA       National Cemetery Administration
NM        Nurse Manager
OHI       Office of Healthcare Inspections
OIG       Office of Inspector General
OMB       Office of Management and Budget
S&LE      Office of Security and Law Enforcement
SA        Special Agent
SSA       Social Security Administration
U.S.      United States
VA        Department of Veterans Affairs
VAMC      Veterans Affairs Medical Center
VARO      VA Regional Office
VBA       Veterans Benefits Administration
VHA       Veterans Health Administration
VISN      Veterans Integrated Service Network




                                       79

Copies of this report are available to the public. Written requests should be sent to:

       Office of the Inspector General (53B)
       Department of Veterans Affairs
       810 Vermont Avenue, NW
       Washington, DC 20420


The report is also available on our website:

       http://www.va.gov/oig/53/semiann/reports.htm

For further information regarding VA’s OIG, you may call 202 565-8620.




       Cover photo of

       Captain John Paul Jones and sailors

       Bronze Relief Sculpture

       U.S. Navy Memorial

       Washington, DC by

       Lawrence J. Timko

       VA OIG, Washington, DC





                                               80

Help VA’s Secretary ensure the integrity of departmental
operations by reporting suspected criminal activity, waste, or
abuse in VA programs or operations to the Inspector General
Hotline.


                  (CALLER CAN REMAIN ANONYMOUS)




To Telephone:          (800) 488-8244
                       (800) 488-VAIG
To FAX:                (202) 565-7936

To Send
Correspondence:        Department of Veterans Affairs
                       Inspector General Hotline (53E)
                       P.O. Box 50410
                       Washington, DC 20091-0410

Internet Homepage:     http://www.va.gov/oig/hotline/hotline.htm

E-mail Address:        vaoighotline@mail.va.gov




                    Department of Veterans Affairs
                     Office of Inspector General
                   Semiannual Report to Congress

                   October 1, 2002 - March 31, 2003
